<html>
<title> - HEARING TO REVIEW FEDERAL FOOD SAFETY SYSTEMS AT THE U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
HEARING TO REVIEW FEDERAL FOOD SAFETY SYSTEMS AT THE U.S. DEPARTMENT OF 
                              AGRICULTURE 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     LIVESTOCK, DAIRY, AND POULTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2009

                               __________

                           Serial No. 111-10


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-575 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




















                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho
------

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

             Subcommittee on Livestock, Dairy, and Poultry

                     DAVID SCOTT, Georgia, Chairman

JIM COSTA, California                RANDY NEUGEBAUER, Texas,  Ranking 
STEVE KAGEN, Wisconsin               Minority Member
FRANK KRATOVIL, Jr., Maryland        BOB GOODLATTE, Virginia
TIM HOLDEN, Pennsylvania             MIKE ROGERS, Alabama
LEONARD L. BOSWELL, Iowa             STEVE KING, Iowa
JOE BACA, California                 K. MICHAEL CONAWAY, Texas
DENNIS A. CARDOZA, California        ADRIAN SMITH, Nebraska
BETSY MARKEY, Colorado               DAVID P. ROE, Tennessee
WALT MINNICK, Idaho
------

              Chandler Goule, Subcommittee Staff Director

                                  (ii)

















                             C O N T E N T S

                              ----------                              
                                                                   Page
Neugebauer, Hon. Randy, a Representative in Congress from Texas, 
  opening statement..............................................     2
Scott, Hon. David, a Representative in Congress from Georgia, 
  opening statement..............................................     1

                               Witnesses

Almanza, Alfred V., Administrator, Food Safety and Inspection 
  Service, U.S. Department of Agriculture, Washington, D.C.......     3
    Prepared statement...........................................     4
    Response to submitted question...............................    76
Boyle, J. Patrick, President and CEO, American Meat Institute, 
  Washington, D.C................................................    20
    Prepared statement...........................................    22
Reagan, Ph.D., James O. ``Bo'', Senior Vice President--Research, 
  Education and Innovation, National Cattlemen's Beef 
  Association; Chairman, Beef Industry Food Safety Council, 
  Washington, D.C................................................    35
    Prepared statement...........................................    36
Appell, Jill, Past President, National Pork Producers Council; 
  Pork Producer, Appell's Pork Farms, Inc., Altona, IL...........    43
    Prepared statement...........................................    44
Krushinskie, Dr. Elizabeth A., Director of Quality Assurance and 
  Food Safety, Mountaire Farms, Inc., Millsboro, DE; on behalf of 
  National Chicken Council.......................................    49
    Prepared statement...........................................    50
Rybolt, Ph.D., Michael L., Director, Scientific and Regulatory 
  Affairs, National Turkey Federation, Washington, D.C...........    52
    Prepared statement...........................................    54
Gibber, Elliot P., President, Deb-El Foods; Chairman, Further 
  Processors Division, United Egg Association, Elizabeth, NJ.....    57
    Prepared statement...........................................    59
Carpenter, Barry L., CEO, National Meat Association, Oakland, CA.    62
    Prepared statement...........................................    63

                           Submitted Material

Pacelle, Wayne, President and CEO, Humane Society of the United 
  States, submitted letter.......................................    75


                     HEARING TO REVIEW FEDERAL FOOD
                       SAFETY SYSTEMS AT THE U.S.
                       DEPARTMENT OF AGRICULTURE

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                  House of Representatives,
     Subcommittee on Livestock, Dairy, and Poultry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:25 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. David 
Scott [Chairman of the Subcommittee] presiding.
    Members present: Representatives Scott, Costa, Boswell, 
Markey, Minnick, Neugebauer, Conaway, and Roe.
    Staff present: Claiborn Crain, Nathan Fretz, Alejandra 
Gonzalez-Arias, Chandler Goule, Craig Jagger, Tyler Jameson, 
April Slayton, Rebekah Solem, Patricia Barr, John Goldberg, Pam 
Miller, Pete Thomson, and Jamie Mitchell.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. This hearing of the Subcommittee on 
Livestock, Dairy, and Poultry to review Federal food systems in 
the United States Department of Agriculture, will come to 
order. I would like to give just a brief opening statement. I 
certainly appreciate everyone being here. The subject of 
today's hearing, a review of Federal food safety systems at the 
USDA, is vital and it is very, very timely. It seems that we 
are perpetually bombarded with news about foodborne illnesses 
and outbreaks, and the debate over reforms of our food safety 
system as a whole, not just with respect to meat and seafood, 
is ramping up very quickly here in Congress. And as such, this 
Subcommittee, along with several others in both the House and 
the Senate, have begun to discuss in more detail what has been 
working with respect to our food, our safety system, and just 
as importantly, what has not been working.
    Food safety is a major concern for American families, and 
preventing foodborne illnesses has to be the primary focus for 
all of the government's food safety agencies. It is no secret 
that opinions vary widely on these issues, and I suspect we 
will hear a range of views from the Members of this 
Subcommittee, as well as our witnesses on the issue at large. 
But I would assert that, with respect to the operations of the 
U.S. Department of Agriculture and the inspections and 
oversight conducted by the Food Safety and Inspection Service, 
the system is largely working. There, of course, remain many 
challenges. We in Congress need to ensure that FSIS and USDA 
have the authorities, have the resources that they require to 
meet those challenges. However, for the largest part, I am very 
confident in the job they are doing and hope that all of our 
constituents are as well.
    Food safety is, of course, a farm to fork problem. At every 
step in the process from animal handling on the farm to 
handling and processing, and all the way to the dinner table, 
there are risks of contamination. We all have to do our part to 
prevent foodborne illnesses. However, industry in conjunction 
with public sector partners on the Federal, state, and local 
levels, such as our nation's public institutions of higher 
learning, are constantly developing new technologies and 
techniques that are improving food safety at every step in the 
process.
    So, I look forward to our discussion today, and our 
continued discussion in this Congress over ways we can improve 
our food safety system. I anticipate that even though many of 
us may have differing ideas of what directions we should take 
in reform this Subcommittee, and indeed the full Agriculture 
Committee, will continue its tradition of working together 
across party lines to develop solutions that incorporate 
everyone's ideas that we can all be comfortable with. And now I 
will entertain an opening statement from our distinguished 
Ranking Member.

OPENING STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                      CONGRESS FROM TEXAS

    Mr. Neugebauer. Well, thank you, Chairman Scott, for 
calling today's hearing to review the Federal food safety 
systems in the United States Department of Agriculture. At the 
opening of the full Committee hearing on April 2, Chairman 
Peterson announced his intent to drive food safety legislation. 
While most of the current food safety ideas being discussed 
center around the activities of the Food and Drug 
Administration, I believe it is important to closely examine 
the programs as conducted under the Federal Meat Inspection Act 
and the Poultry Products Inspection Act. Mr. Chairman, I am 
confident that observers and participants in today's hearing 
would be interested in knowing our thoughts about how food 
safety legislation might affect livestock producers, meat and 
poultry processors, retailers, and consumers.
    Producers in my district are increasingly asking me about 
the food safety debate here in Washington and what changes it 
might bring to the food system. My district includes one of the 
largest cattle feeding areas in the country, several large 
dairy operations, as well as numerous small farmers who sell 
products at the local markets. All of them could be affected by 
changes from the new food safety legislation. From our 
witnesses today, I anticipate that Subcommittee Members will 
gain a greater understanding of our Federal food safety system, 
which will equip us to respond to specific proposals which will 
actually help inform our understanding of how programs at FDA 
differ from those at USDA.
    The better our understanding of the current system, the 
better our ability to weigh proposed changes. I appreciate that 
we will be taking testimony from the Administrator of the Food 
Safety and Inspection Service, and from witnesses speaking on 
behalf of both packers and producers. In my view, these 
witnesses are especially qualified to tell us what is working, 
what is not, and what challenges should be addressed as we 
proceed in this public policy discussion. Again, Mr. Chairman, 
thank you for having today's hearing. I look forward to the 
testimony of our witnesses and the dialogue during the 
questions.
    The Chairman. Thank you very much, Mr. Neugebauer. Now the 
chair will request that other Members submit their opening 
statements for the record so the witnesses may begin their 
testimony, and to ensure that there is ample time for 
questions. We would like to welcome all our witnesses to the 
table. First, we have on our panel one, we have Mr. Alfred V. 
Almanza, Administrator, Food Safety and Inspection Service for 
the United States Department of Agriculture in Washington, D.C. 
Mr. Almanza, you may begin.

STATEMENT OF ALFRED V. ALMANZA, ADMINISTRATOR, FOOD SAFETY AND 
INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, 
                              D.C.

    Mr. Almanza. Chairman Scott, Ranking Member Neugebauer, and 
Members of the Subcommittee, thank you for inviting me to 
appear before you today at this hearing to review Federal food 
safety systems at the United States Department of Agriculture. 
I am Al Almanza, Administrator of the Food Safety and 
Inspection Service at USDA, and I appreciate the interest that 
the full Committee and this Subcommittee has expressed in 
improving the nation's food safety system. FSIS is responsible 
for the verification of food safety systems producing meat, 
poultry, and processed egg products, and for ensuring the 
equivalency of the countries shipping these products to the 
United States.
    Our agency has a long tradition of food inspection and in 
the mid-1990s transitioned to a HACCP environment, in which an 
individual establishment is responsible for designing and 
maintaining its food safety system. Under our HACCP 
environment, the agency's responsibilities include verifying 
that the establishment has effectively identified hazard points 
in its system and has deployed steps to prevent and mitigate 
risks. Only then has the product from that establishment earned 
the mark of inspection from USDA, which is a symbol to the 
consumer that the product is safe and wholesome. FSIS similarly 
requires the food safety systems of other nations exporting to 
the United States to have an equivalent system. Importing 
nations must provide us with the assurances that their system 
has met our standards.
    I have submitted written testimony for the record which 
provides a great deal of detail about how FSIS operates. It 
describes our efforts to improve our inspection process and our 
public health infrastructure, which is designed to identify 
problems before they occur. But for my oral testimony today, I 
would like to focus on the broader issue of the current state 
of our nation's food safety system. President Obama and 
Secretary Vilsack have clearly expressed a willingness to 
tackle food safety, and they are to be commended for taking on 
this difficult and challenging issue. This is a priority from 
the top and FSIS welcomes the challenge. We need to take a look 
at the risk posed by different food products and the 
performance of the establishments that manufacture those food 
products.
    At FSIS, we have been tasked to look at all of our 
regulations and administrative actions, inter-agency 
coordination, the way we work with state and local partners, 
and our coordination with foreign governments. In addition, we 
are reviewing our strengths and weaknesses and will provide 
suggestions on these areas needing improvement. An important 
part of the FSIS inspection role is verification that industry 
is following its food safety plan. This is intensive, and this 
is how we ensure we are holding ourselves accountable to our 
food safety responsibilities.
    Through internal management controls, we can identify if we 
are not meeting the mark and where there might be data gaps. 
Moreover, our Public Health Information System will help us 
identify sooner if we start falling behind and help us improve 
our accountability. We also need to ask hard questions about 
what level of verification of food safety systems is 
appropriate for different kinds of foods, what roles are 
appropriate for the different agencies involved in food safety, 
and if a uniform approach on import safety is needed. These 
questions need to be viewed through the prism of public health 
protection and risk assessment and management.
    But, we don't need to start from scratch. There has been 
much learned about our current system as well as those of other 
countries. The GAO has repeatedly studied how our trading 
partners ensure food safety, most recently in 2008. It is clear 
that GAO believes that the expertise of other nations can 
provide insight on how to improve our own food safety system.
    FSIS welcomes the keen interest of Congress, our 
stakeholders, and the public in food safety. President Obama 
has formed the Food Safety Working Group and has charged both 
Secretary Vilsack and the Secretary of Health and Human 
Services with leading this effort aimed at making our systems 
more uniform, consistent, and effective. We support this pledge 
to strengthen and enhance our nation's food safety system. 
Based on my more than 30 years serving in the field for FSIS, I 
believe this agency is up for the challenge.
    Chairman Scott, Ranking Member Neugebauer, and Members of 
the Subcommittee, thank you again for allowing me the 
opportunity to be here today to discuss our current food safety 
system and future enhancements. I look forward to your 
questions.
    [The prepared statement of Mr. Almanza follows:]

Prepared Statement of Alfred V. Almanza, Administrator, Food Safety and 
  Inspection Service, U.S. Department of Agriculture, Washington, D.C.
    Chairman Scott, Ranking Member Neugebauer, and Members of the 
Subcommittee, thank you for inviting me to appear before you today at 
this hearing to review Federal food safety systems at the U.S. 
Department of Agriculture (USDA).
    Food safety is a priority for this Administration and this agency. 
I commend the President and Secretary Vilsack for taking on this 
difficult issue and making review of the current state of our food 
safety system a top priority. I also appreciate this Subcommittee and 
the full House Agriculture Committee exploring how FSIS regulates 
products under its jurisdiction and the larger issue of the nation's 
food safety system.
    There is much we can draw from as we engage in this food safety 
dialogue. Many experts have studied our current system in the U.S. and 
that of other countries. We don't need to start from scratch; there are 
many lessons learned that can and should be considered as part of this 
open discussion.
    As we embark on this dialogue, we all need to look at the various 
levels of risk posed by different food products, and the different 
performance of the establishments that manufacture those food products, 
for the entire food supply. We also need to ask hard questions about 
what level of inspection is appropriate for different kinds of foods, 
what roles are appropriate for the different agencies involved in food 
safety, and how we approach uniformity in import safety. These 
questions should be viewed through the prism of public health 
protection and risk assessment and management.
    We will support Secretary Vilsack's pledge to strengthen and 
enhance our nation's food safety system. He has tasked us to look at 
all of our regulations and administrative actions, inter-agency 
coordination, the way we work with state and local partners, and our 
coordination with foreign governments. In addition, we will review our 
strengths and weaknesses and provide suggestions on areas needing 
enhancement. We welcome your interest and this hearing today and look 
forward to working with you and all of our stakeholders.
Who We Are and What We Do to Ensure Food Safety
    FSIS is the inspection agency within the U.S. Department of 
Agriculture with a focus on public health. It is responsible for 
ensuring that the nation's commercial supply of meat, poultry, and 
processed egg products is safe, secure, wholesome, and accurately 
labeled and packaged, whether those products are domestic or imported. 
We administer and enforce the Federal Meat Inspection Act, the Poultry 
Products Inspection Act, the Egg Products Inspection Act, portions of 
the Agricultural Marketing Act, the Humane Methods of Slaughter Act, 
and the regulations that implement these laws.
    Our mission is to protect the public health. Since our long-
standing statutes were established, our inspection process has evolved 
into a dynamic preventative system designed to address problems before 
they occur. However, there is always room for enhancement and we are 
always open to improvement. Mindful of our finite resources, we have to 
measure and attack risk, hazards, or inadequate performance to know 
where we can best focus our attention. In order to efficiently and 
effectively protect the public health, we at FSIS recognize that all 
food doesn't necessarily carry the same risk, and all plants do not 
operate the same way.
    The high volume and the high-risk nature of the products that FSIS 
inspects demand an in-plant inspection presence, which is not only 
required by law, but is necessary to protect consumers. For this 
reason, the agency employs over 9,500 people, including around 7,800 
full-time in-plant and other front-line personnel protecting the public 
health in approximately 6,200 federally-regulated establishments 
nationwide. Our statutes require us to be present for all slaughter 
operations and we inspect each processing establishment once per shift 
per day. Inspection personnel perform approximately nine million food 
safety and 1.5 million food defense verification procedures annually at 
these plants. In Fiscal Year (FY) 2008, FSIS personnel inspected about 
50 billion pounds of livestock carcasses, about 59 billion pounds of 
poultry carcasses, and about 4.3 billion pounds of processed egg 
products. Additionally, FSIS personnel inspected 3.3 billion pounds of 
imported meat and poultry products at our borders.
    In addition to in-plant personnel in federally-inspected 
establishments, FSIS employs a number of other field personnel, such as 
laboratory technicians and investigators. Program investigators conduct 
surveillance, investigations, and other oversight activities at food 
warehouses, distribution centers, retail stores, and other businesses 
operating in commerce that store, handle, distribute, transport, and 
sell meat, poultry, and processed egg products to the consuming public. 
These in-commerce businesses do not operate under grants of inspection 
and are not inspected on a daily basis by FSIS. However, the agency 
verifies that FSIS-regulated products moving in consumer distribution 
channels continue to be safe and wholesome.
    Since 2000, the Hazard Analysis and Critical Control Point (HACCP) 
system, an internationally recognized method for the identification and 
control of hazards, has been required for all meat and poultry plants. 
Plants are responsible for identifying the hazards in the products they 
produce and determining how to minimize contamination at each step of 
their process. Our responsibility is to verify that plants are 
following their own food safety or HACCP plans.
    In late 2001, FSIS began an additional level of surveillance 
through food safety assessments (FSAs), further strengthening public 
health. These FSAs, carried out by highly trained scientific personnel, 
look thoroughly at the design of the plant's food safety plan as 
verification that an establishment has fully assessed the relevant 
hazards and put in place controls or preventive measures that are 
effective. This more intensive review, now to be done on a routine 
basis, provides valuable data for the agency to analyze and can lead to 
major changes or refinements in agency policy. FSIS has committed to 
conducting routine FSAs in every plant every 4 years. Additional FSAs 
will be conducted as needed, for example, following positive pathogen 
sample results or products implicated in forborne illness outbreaks.
    Our policies at FSIS are rooted in science and based on data. 
Through science-based initiatives and efforts to continue to strengthen 
our infrastructure, FSIS works to prevent adulterated food from 
reaching the consumer. In 2008, FSIS personnel tested about 21,300 
ready-to-eat product and environmental samples using risk-based 
criteria for Listeria and approximately 49,000 raw product samples for 
E. coli O157:H7 in ground beef and Salmonella in raw meat and poultry. 
To analyze these samples, FSIS has three labs, and supports 25 Food 
Emergency Response Network (FERN) labs. FERN consists of Federal, 
state, and local governmental laboratories, which are responsible for 
protecting the U.S. food supply from intentional biological, chemical, 
and radiological contamination.
    All products under FSIS' jurisdiction receive the USDA mark of 
inspection after inspectors confirm its safety and wholesomeness. This 
is one of our most powerful tools in protecting the public health. 
Denying the mark of inspection due to insanitation or a lack of process 
control, for example, closes down a regulated establishment and 
effectively prevents the production of potentially adulterated food.
Making the Best Use of Our Data
    In order to improve upon our preventative system of identifying the 
inherent risks of different food products and establishments, we must 
continue to evolve towards an even more science-based, data driven 
inspection system. This depends on building a comprehensive and 
integrated strategic approach to managing data. FSIS has long 
recognized this need, which has also been recognized by the Office of 
the Inspector General (OIG), the Government Accountability Office 
(GAO), Congress and our stakeholders. Before and since its December 
2007 audit, we have been working closely with the OIG to strengthen our 
data collection and analysis capabilities.
    FSIS has enhanced data integration through data sharing, mining, 
reporting, and analysis within and across FSIS programs and other 
agencies. FSIS' improvements include forming the Data Analysis and 
Integration Group (DAIG) and the Data Coordinating Committee (DCC). The 
DAIG is a staff dedicated to conducting data analysis and ensuring that 
agency data analyses are consistent, of high quality, relevant to FSIS' 
mission and business processes, and fully integrated into ongoing 
decision-making. The DCC has members from each FSIS program office who 
serve as liaisons between the DAIG and the program offices. More 
specifically, DCC members coordinate the analysis of data to ensure 
that data is not duplicated, that data is used efficiently, and that 
analysis done in one part of the agency is available to inform the work 
done in other parts of the agency and other food safety partners.
    FSIS works closely with other Federal, state, and local agencies, 
which have a role in keeping the U.S. food supply safe, to coordinate 
food safety and food defense activities, including risk assessment and 
risk management. For example, the agency has a liaison to the Centers 
for Disease Control and Prevention (CDC) and uses data from the 
PulseNet system to monitor foodborne illness-causing bacteria; 
coordinates with Custom and Border Protection (CBP) to monitor product 
imported to the United States; and frequently interacts with the U.S. 
Food and Drug Administration (FDA) on mutual food safety and food 
defense issues. These are only a few examples. We also recognize the 
importance of uniform and consistent Federal food safety requirements 
for our state and local partners.
    In addition, FSIS utilizes AssuranceNet, a web-based system of 
management controls that pull inspection and laboratory data from the 
agency's data warehouse. We have been creating analysis plans for 
directives and notices, conducting peer reviews of data analyses, 
soliciting input from stakeholders, and developing a consistent set of 
tools for conducting data analysis. In all these efforts to evolve our 
data management system, we are pleased with the support we've been 
given by the Administration and Congress in recognition of providing 
support for our information technology infrastructure enhancements.
Public Health Information System
    FSIS has been working on a number of actions related to data 
integration and analysis and enhancements to the agency's inspection 
program and many are nearing completion. The most significant 
initiative is the development of a Public Health Information System 
(PHIS) which will integrate the agency's data systems to provide a 
comprehensive, fully automated system that will allow FSIS to more 
quickly and accurately identify trends, including vulnerabilities in 
food safety systems, and thus allow us to more efficiently and 
effectively protect public health.
    In order to satisfy the OIG's recommendation for external review, 
FSIS asked the National Academy of Sciences (NAS) to review FSIS data 
initiatives in order to ensure that agency decisions are science-based 
and data driven. Three studies have already been undertaken by NAS. 
FSIS will review the input from NAS and determine whether and how to 
incorporate appropriate changes into PHIS.
    PHIS will integrate FSIS data sources, improve data quality and 
reporting consistency, enhance management controls, and ensure more 
efficient and effective use of FSIS data to inform inspection 
activities and develop policies that protect public health. This 
enhanced dynamic system will be a flexible, user friendly, and web-
based application that replaces many of FSIS' legacy systems built with 
older technology (e.g., the Performance-Based Inspection System), 
automates paper-based business processes (e.g., export certification), 
and can be modified to accommodate changing needs.
    PHIS will also revolutionize how FSIS collects and analyzes 
information about domestic and international food safety systems that 
produce FSIS-regulated products so that the agency can better identify 
food safety risks before they result in outbreaks or recalls. Using 
multiple FSIS data sources, analysts will be able to identify trends 
and anomalies from test results and inspection findings.
    Further, using the Predictive Analytics component of the Public 
Health Information System, FSIS will be able to monitor all 
establishment and import/export data points in near real time and alert 
the agency to anomalies, such as a large number of incomplete 
inspection activities or high rates of noncompliance in an 
establishment. In addition, PHIS will support automated algorithms and 
decision criteria for consistent direction of inspection activities and 
reporting of inspection results.
    PHIS will streamline the agency's export program by automating 
paper-based processes, including establishment applications for 
approval for export, applications for export certificates, and the 
issuance of export certificates. The system will enable an automated 
edit-check capability to ensure certificates properly reflect a foreign 
country's import requirements. The new system will allow FSIS to verify 
the effectiveness of foreign food safety systems and enable the advance 
receipt and verification of electronic foreign health certificates 
associated with arriving foreign shipments certified by a foreign 
government.
    PHIS will also automate FSIS processes for auditing the inspection 
programs of foreign countries exporting meat, poultry, and processed 
egg products to the United States. This will also serve to allow the 
agency to provide greater oversight to countries that stand out because 
of import findings or inconsistencies in their programs, allowing us to 
spend less time and resources performing our annual audits of countries 
that consistently meet our regulatory requirements and more time 
auditing those that do not.
    Since 2002, FSIS has actively participated in the International 
Trade Data System initiative, and is working closely with the 
Department of Homeland Security's (DHS) CBP to ensure an electronic 
interface between PHIS and CBP's Automated Commercial Environment. This 
long overdue initiative, when completed, will give us a greater level 
of confidence in the safety of imports and the food safety systems of 
foreign countries deemed equivalent by providing real-time exchange of 
import data between the importing community, CBP, and FSIS to ensure 
that appropriate inspections are performed and enforcement actions are 
taken.
    We have also provided broadband computer connections to most 
inspection program personnel in the field so that they are linked to a 
near real-time data communications infrastructure. This improved access 
is vital for agency personnel who are collecting data in the field, 
because it will allow them to spend more of their time on inspection 
activities.
    FSIS is leveraging USDA enterprise data centers to host the new 
PHIS and other major systems to ensure that they are readily available 
and are using current data. In addition to using a primary USDA 
enterprise data center, a second, geographically separate, failsafe 
enterprise data center will be used to ensure a consistently reliable 
system in case of disaster or disruptions in the primary facility. The 
agency is also continuing to further secure its infrastructure to 
protect its data and systems.
Imports
    FSIS ensures the safety of imported meat, poultry and processed egg 
products through a three-part approach. First, FSIS establishes the 
initial equivalence of the meat, poultry, or processed egg inspection 
system of a country that wishes to export to the United States. Second, 
as I mentioned, we verify continuing equivalence of the foreign system 
through annual audits. Finally, FSIS import inspectors perform re-
inspection of shipments of meat, poultry, and processed egg products at 
the border, including statistically-based random sampling that is 
intended to verify the effectiveness of the foreign inspection system.
     This country-to-country approach to food safety is an efficient 
and effective means to ensure the safety of imported products and 
illustrates that our trading partners' governments have appropriately 
invested in and exercised control of their food safety infrastructure. 
PHIS will also connect with participating foreign governments, which 
will enable electronic certification of shipments to the United States. 
This is an important additional control for import safety.
    Equivalence is the foundation for our system of import safety. The 
equivalence principle recognizes that an exporting country can employ 
different sanitary measures than the U.S. to address food safety 
hazards if the country can objectively demonstrate that its safety 
measures achieve the same level of public health protection as the 
measures used by the United States for its meat, poultry, and processed 
egg products.
    Once the imported product enters this country, FSIS' field force of 
program investigators provide ongoing surveillance of product in 
commerce to protect the public from illegally imported and smuggled 
meat, poultry, and processed egg products.
    We take great pride in FSIS' equivalence system for imported food 
under its jurisdiction. By working with the government of each foreign 
trading partner, rather than individual establishments, we can ensure 
that imported products under FSIS' jurisdiction meet standards that 
provide the same level of protection as that provided by FSIS 
inspection of domestic products. Further, we can use resources more 
efficiently and effectively when working with our counterparts in other 
countries.
Fighting Foodborne Pathogens
    Earlier, I hinted at some of the steps that FSIS has taken to 
tackle foodborne pathogens, and I'd like to elaborate on that a little. 
FSIS works in collaboration with CDC, FDA and state and local public 
health partners to investigate foodborne illness cases and outbreaks. 
One specific collaborative effort is FoodNet (the Foodborne Diseases 
Active Surveillance Network), a part of the Emerging Infections Program 
at the Centers for Disease Control. FSIS worked in conjunction with 
CDC, FDA, and epidemiologists and public health laboratories in several 
states to establish FoodNet in 1996. FoodNet conducts active 
surveillance of foodborne diseases, case-control studies to identify 
risk factors for acquiring foodborne illness, and surveys to assess 
medical and laboratory practices related to foodborne illness 
diagnosis. It also provides estimates of foodborne illness and sources 
of specific diseases that are usually found in the United States and 
interprets these trends over time. FSIS uses the data that are 
generated to analyze the effectiveness of its Pathogen Reduction/Hazard 
Analysis and Critical Control Point (PR/HACCP) rule and other 
regulatory actions, as well as to develop public education initiatives.
    FoodNet data are used by the agencies that are involved to evaluate 
progress toward meeting the Healthy People 2010 and Healthy People 2020 
national objectives for foodborne infections. FSIS and FDA are co-lead 
agencies responsible for the HP 2010 food safety objectives. Of the 
infections tracked in this category, most, but not all, are transmitted 
by food vehicles, including drinking water, and many are transmitted by 
foods not regulated by FSIS. We recognize that the most recent 
surveillance data on foodborne disease outbreaks from the Centers for 
Disease Control shows that progress toward Healthy People 2010 
objectives has plateaued, and that the incidence of the most common 
foodborne illnesses has changed very little over the past 3 years. This 
is troubling to us, and we believe the report points to the need for 
better information about which foods contain pathogens that are sources 
of infection.
    We have taken many aggressive actions to combat E. coli O157:H7. 
For example, we now have more targeted routine testing, we are testing 
more ground beef components, we refined the testing method, and we have 
released draft compliance guidelines for industry. We have also held 
several public meetings to discuss the challenges posed by E. coli 
O157:H7 and to work on solutions with industry, including small plants, 
consumers, and other public health partners. Those discussions have 
helped us begin developing directives and policies to address our new 
steps for the future.
    We are also pleased to report that we have seen improvement in the 
data trends as a result of the Salmonella initiative and verification 
testing programs. Furthermore, FSIS is analyzing the data on Salmonella 
and Campylobacter contamination from a recently completed 
microbiological baseline study of broiler carcasses and deciding how to 
proceed based on that data.
    We have implemented policies to control Listeria monocytogenes (Lm) 
in ready-to-eat (RTE) products. The agency has a zero tolerance policy 
for this pathogen in RTE products and FSIS requires that establishments 
producing RTE products address Lm through a written program, such as 
their HACCP plan or Sanitation Standard Operating Procedures, or other 
prerequisite programs.
    FSIS scientists continue to stay abreast of new developments in the 
area of microbial food safety and inform agency management of potential 
policy implications.
    I do want to be clear that our routine Salmonella testing data is 
not a measure of true national prevalence--that is why we conduct 
periodic baseline studies. We have completed a new broiler baseline 
study, from which we plan to estimate national prevalence data. Our 
intent is to continue to drive down human illness rates, to drive down 
percent positive rates in verification samples, and to reduce the 
national prevalence of Salmonella as estimated by baseline studies. 
However, without accurate data attributing illness to specific foods, 
defining meaningful performance objectives remains challenging for 
regulators. Attribution is absolutely critical.
Recalls
    Recalls are the last weapon that FSIS uses to combat foodborne 
illness and protect public health. The purpose of a recall is to remove 
meat or poultry from commerce as quickly as possible when FSIS has 
reason to believe it is adulterated or misbranded. Just as we approach 
preventing a recall in a proactive way, FSIS is also proactive in 
overseeing recalls once they become necessary.
    I cannot stress enough that, even though recalls are voluntary 
actions, they are the result of active oversight and intervention by 
our agency. Moreover, we are open to any ideas that will strengthen our 
food safety system recall process.
    The agency issues recall information as quickly as possible to the 
public, stakeholders and public health partners. Also, we have begun 
translating more of the recall releases into Spanish. Individuals can 
subscribe to receive automatic e-mail notification of recall updates, 
including press releases, directly from FSIS' website at 
www.fsis.usda.gov, as well as RSS (Really Simple Syndication) feeds.
    After the recall occurs, FSIS conducts effectiveness checks to 
ensure that consignees have received notice of the recall and are 
making reasonable efforts to retrieve and destroy the recalled product 
or return it to the recalling firm. Upon compliance, the recalling firm 
is officially notified by letter that the recall is completed, and no 
further action is expected.
    Last year, in order to improve the effectiveness of a recall, FSIS 
also began to make available to the public a list of retail 
establishments that have likely received products subject to the 
recall. FSIS believes this information helps consumers lower their risk 
of foodborne illness by providing more information that may assist them 
in identifying recalled products. Interested individuals can also 
subscribe on the FSIS website to get e-mail alerts about the retail 
distribution lists.
Training and Education
    FSIS can only achieve its public health, food safety, and food 
defense missions with a well-prepared workforce; therefore, training is 
one of our top priorities. Through scientific and technical training 
that reflects the agency's science-based approach to food safety and 
food defense, we can accomplish this. FSIS has made a number of 
improvements in employee training, thereby increasing workforce 
capability and advancing our public health goals. In addition, FSIS 
training is accredited by the International Association for Continuing 
Education and Training, qualifying our training programs to award 
continuing education units (CEUs) to participants who successfully 
complete courses.
    FSIS has made substantial progress in improving its workforce 
training program. Some key milestones demonstrating improvement include 
establishing a new curriculum based on food safety and public health; 
implementing training as a condition of employment; launching a 
comprehensive management, leadership and development program based on 
the Office of Personnel Management's competencies to meet the need for 
succession planning; introducing a regular process to provide training 
that coincides with the issuance of key agency policies; building 
capacity for follow up training and education through distance 
learning; achieving greater flexibility with training contracts; 
establishing regional training bringing courses closer the worksite; 
and evaluating the effectiveness of training through pre and post 
testing.
    We also recognize the importance of partnering with industry by 
sharing our training materials and conducting training and education 
sessions for industry and inspection personnel in the same room 
together. This approach keeps industry current on our training methods 
and materials and leads to greater compliance by industry through a 
better understanding of the Federal requirements.
    The best asset that FSIS has is a dedicated workforce. With FSIS 
being the largest Federal employer of veterinarians, the agency has 
developed new recruitment and retention strategies to retain those 
employees who have a passion for food safety and public health and to 
attract others to join us in protecting the public health. As a result 
of our efforts, agency in-plant personnel vacancy rates are declining. 
At the end of FY 2008, FSIS had more in-plant inspection personnel than 
at any time since 2001. Even with these strategies, the future of the 
workforce will need a high degree of technical and analytical skills in 
order to address emerging pathogens and problems.
Where We Go From Here
    Mr. Chairman and Members of the Subcommittee, President Barack 
Obama and Secretary Tom Vilsack have clearly expressed a willingness to 
tackle food safety and they are to be commended again for taking on 
this difficult and challenging issue. This is a priority from the top, 
and FSIS is up to the challenge.
    For its part, FSIS will continue along the lines I've described 
here today--to improve its public health infrastructure designed to 
address problems before they occur.
    But that is not enough. The President and the Secretary have laid a 
challenge before us, and we need to engage in the dialogue now opened 
to take a look at the risk posed by different food products, and the 
performance of the establishments that manufacture those food products, 
for the entire food supply. We also need to ask hard questions about 
what level of inspection is appropriate for different kinds of foods, 
what roles are appropriate for the different agencies involved in food 
safety, and if a uniform approach on import safety is needed. The 
President has established a Food Safety Working Group to conduct a 
thorough review of food safety systems.
    There has been much written about our current system, as well as 
those of other countries. The GAO has repeatedly studied how our 
trading partners ensure food safety, most recently in 2008. It is clear 
that GAO believes that the experiences of nations such as Canada, the 
European Union, Germany, Ireland, Japan, the Netherlands, and the 
United Kingdom can provide insight on how to improve our own food 
safety system.
    FSIS recognizes the keen interest of Congress, our stakeholders, 
and the public in food safety. We support the President's pledge to 
strengthen and enhance our nation's food safety system. Based on my 
more than 30 years serving out in the field for FSIS, I believe this 
agency is up for the challenge.
    Chairman Scott, Ranking Member Neugebauer, and Members of the 
Subcommittee, thank you again for allowing me the opportunity to be 
here today to discuss our current food safety system and future 
enhancements. I look forward to your questions.

    The Chairman. Thank you very much, Mr. Almanza, and we will 
now start our questioning. I am going to yield my time, and 
give some time to Mr. Boswell, who has to catch a flight. You 
are recognized, Mr. Boswell, for 5 minutes.
    Mr. Boswell. Thank you, Mr. Chairman. I appreciate you 
being here to share with us today. A couple of things that are 
on my mind. Recently, I was involved with a trip to Vietnam, 
which you are probably aware of, looking facilities over, and 
it just brings to mind during our full Committee hearing on 
food safety a few weeks ago, we asked the witnesses about 
catfish. Dr. Murano, former Under Secretary of Food Safety for 
USDA, explained that catfish is a muscle meat, and she expects 
that FSIS will apply the same food safety principles to catfish 
as the agency does to meat and poultry.
    So my question is do you agree with Dr. Murano's assessment 
of catfish, and will FSIS be applying the same food safety 
principles to catfish as to meat and poultry?
    Mr. Almanza. Yes, sir. I don't have any reason to believe 
that we would not.
    Mr. Boswell. Okay. Thank you. Does catfish fit well in a 
HACCP-based system?
    Mr. Almanza. Yes, sir. It does fit perfectly into the HACCP 
principle type of inspection.
    Mr. Boswell. Okay. Thank you. And what are the differences 
between what will be FSIS' HACCP, that is a lot of letters, for 
catfish and the HACCP system that is currently in place for 
other seafood?
    Mr. Almanza. Well, most importantly, we would provide daily 
inspection as we do with meat and poultry inspection, which is 
a continuous presence in each establishment.
    Mr. Boswell. Thank you. The recent farm bill mandated that 
catfish inspection be transferred from FDA to your agency. 
Where are you in the implantation process, and do you think 
that FSIS should inspect all seafood products?
    Mr. Almanza. Currently, the catfish inspection is in 
rulemaking, and in response to your second question, that is 
something that would probably be decided at a level much higher 
than mine.
    Mr. Boswell. Well, I appreciate that, and thank you for 
being with us today, and we will look forward to our continuing 
dialogue on this subject.
    Mr. Almanza. Thank you.
    Mr. Boswell. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. The chair will now recognize the 
Ranking Member, Mr. Neugebauer, for 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Mr. Almanza, in your tenure at USDA, has 
any company ever refused a request to recall a product?
    Mr. Almanza. Not that I am aware of.
    Mr. Neugebauer. Under a mandatory recall system, favored by 
some, if food is recalled on the basis of adulteration should 
the government require first to prove that the product is 
adulterated or should the recall just go ahead and happen?
    Mr. Almanza. Well, first of all, for it to be in a Class I 
recall situation, it would have to be adulterated for us to 
engage in a recall, yes, sir.
    Mr. Neugebauer. Can you kind of walk me through the process 
of, once you perceive there is a problem, what your agency does 
to interact under that scenario of a product that is thought to 
be adulterated?
    Mr. Almanza. Okay, sure. What we do is we have a recall 
committee, and it is comprised of different parts of our 
agency. We look at what occurred within the facility, what the 
product is, whether the risk is an imminent risk. So, we kind 
of look at all the different facets to what the product is and 
the adulterant or whatever. It may be something else. It may be 
something that just affects its usability, and so the recall 
committee goes through a process to determine whether or what 
caused the recall. Obviously, if it is an adulterated product 
that would then be a Class I recall and all the product would 
be recalled.
    Mr. Neugebauer. And how do you determine the scope of that 
recall?
    Mr. Almanza. Well, it just depends on what products were 
affected by--if it is just, for example, if it is ground beef 
and we have determined that it is adulterated, then we would go 
back to the producer and get the records of where the product 
was distributed, and then recall it from there.
    Mr. Neugebauer. One of the things that I am hearing from 
some of the people in processing is that, increasingly, the 
agency is dealing with them on a directive basis rather than 
coming out with rulemaking, and having a comment period. They 
are concerned that normal policies are not being followed in 
the sense that when the agency is taking a change in direction 
that you are kind of circumventing due process. What would your 
response to that be?
    Mr. Almanza. I would say that we have--``transitioned'' is 
probably a good word--into adapting to different things that 
are occurring within the industry. For example, when we first 
started with HACCP, HACCP was new. We implemented it, and 
certainly we knew that it would not be elastic and things have 
occurred. The industry has adjusted to some of the things that 
we have done. And so it has been an adjustment period in my 
opinion for both, for the industry and for us as regulators.
    Mr. Neugebauer. Do you think that it can be done better?
    Mr. Almanza. Oh, absolutely. Yes, sir.
    Mr. Neugebauer. Well, the concern I have is a lot of times 
in the government we tend to start trying to be the sheriff 
instead of working with the industry, who probably have an 
equal amount of expertise in that process. I think what 
everybody is interested in is food safety, both the people that 
are involved in the production and processing of food. And when 
we leave them out of that process, I don't think we would get a 
better result. So, I would hope that in the future that we 
would get back to looking to the industry to come to the table, 
coming up with a rulemaking process that allows input into 
that, instead of the agency being the person that believes that 
they know what is best for the food safety, because we miss 50 
percent or more of the knowledge base in that process. I have 
to tell you I was extremely disappointed that we have moved 
away from that kind of activity. With that, Mr. Chairman, I 
yield back.
    The Chairman. All right. Thank you, Mr. Neugebauer. Mr. 
Almanza, let me ask you this question. GAO says that there are 
a total of 15 agencies collectively administering 30 laws 
related to food safety, though primarily they fall under FSIS 
and FDA jurisdiction. My question is does inspection work when 
there is more than one government entity responsible for food 
safety?.
    Mr. Almanza. Does it work? I think it works. What I think 
we need to get to is we need to look at risk, public health and 
food safety, and let that be the driver and have a more uniform 
system. When you look at product risk and you look at a risk 
ranking of where different products stand in a risk ranking, 
that is probably the key for the level of inspection, the 
amount of inspection, the intensity of inspection because it 
doesn't really matter, in my opinion, the number. It is the 
uniformity of how the inspection is applied.
    The Chairman. Tell us what do you mean by high risk 
products, what is that?
    Mr. Almanza. I think that there are different products that 
have a higher risk to cause foodborne illness.
    The Chairman. Could you give us some examples?
    Mr. Almanza. Well, there are some that the current things 
that we have had with E. coli, with ground beef, some of the 
Listeria monocytogenes outbreaks and some Salmonella outbreaks. 
When you start looking at the products that are involved in 
some of those situations then there would be some higher level 
of risk to those rather than say some canned products that 
carry minimal risk.
    The Chairman. So you are saying beef is a high risk 
product?
    Mr. Almanza. I wouldn't say across the board it is, no, 
sir. There are certain products derived from some beef not beef 
as a whole.
    The Chairman. Poultry?
    Mr. Almanza. With poultry, there is some Salmonella but 
that is raw poultry, and so you have to look at the different 
food products, depending on where the risks that are involved 
with producing it, the risks that are involved with 
manufacturing it, and so on.
    The Chairman. So the risk is not the product as much as the 
processes that product goes through. I guess what I am trying 
to get at, what makes it the high risk product, that beef and 
poultry are not generally high risk, at what point, where in 
the chain do they become high risk?
    Mr. Almanza. Well, that is something that needs to be 
looked at, because, obviously, the federally inspected 
establishments or the regulated establishments, they do 
everything within their power to create a safe and wholesome 
product. Once it gets beyond them then they don't have any 
control over what occurs, say at the market. If some of those 
products are used for purposes that they weren't intended to be 
used for then it creates a higher risk. So, the whole risk 
ranking needs to look at the process, the production, and how 
the products are handled beyond their control.
    The Chairman. What about seafood, is that----
    Mr. Almanza. We currently do not have seafood. That would 
be FDA, but I really don't know that.
    The Chairman. Have you ever been aware of oysters being a 
high risk food?
    Mr. Almanza. I know what I read in the paper about them but 
that is about it, sir.
    The Chairman. It would be helpful for the Committee if we 
could get more information on how high risk products are 
designated at what point, where is it, because you have, 
certainly, in your testimony spoke very emphatically about high 
risk products.
    Mr. Almanza. Right.
    The Chairman. And, we certainly need to know a definition 
of that, at what point in the chain do they become high risk, 
what are they. We need to know what and where they are in the 
chain, and whether or not we should inspect them on a 
continuous basis, which I might ask you once we identify who 
and what they are, would we need to then put a more continuous 
inspection process on them?
    Mr. Almanza. Yes, sir. There is currently a Food Safety 
Working Group that has been comprised of us and FDA, and they 
are looking at those types of things. I think it would be very 
helpful to have someone do a risk ranking of all products and 
that way we would be able to determine. Today I can tell you, 
do we over-inspect some products? Yes, we do. Do we under-
inspect some products? I don't know the answer to that, but I 
can tell you that we have a daily presence and we are at every 
federally-inspected establishment every single day and every 
single animal that is slaughtered is inspected. So, I 
understand what you are saying and we can certainly get back to 
you with information that we have on that.
    The Chairman. That would be very helpful if we could get a 
ranking on that. And say, when you said there that someone 
should do that ranking, would that someone be USDA?
    Mr. Almanza. Well, that is certainly something that, 
perhaps, the Food Safety Working Group could do or have it 
tasked out to be done.
    The Chairman. All right. Thank you very much. My time has 
expired. We will now go to Representative Roe.
    Mr. Roe. Thank you, Mr. Chairman. First of all, the food in 
this country is safe. I want the people to understand that 
there are some problems, but I go to a restaurant and eat or 
out to the cafeteria and eat here at the House. It is a safe 
product that we have. And no one is any more interested in that 
than the producers. They have a tremendous vested interest, and 
of course we are going to hear from that on the next panel. You 
may not know the answer to this, but how many foodborne illness 
deaths are there in the United States per year, do you know?
    Mr. Almanza. No, sir, I do not know that.
    Mr. Roe. We probably could get that. I think it would give 
us some idea of how many foodborne outbreaks we are talking 
about. How big is the problem before you go at it with an 
atomic bomb, how big of a problem is it, so if we could find 
out that information. You mentioned several of the Salmonella 
and E. coli and so forth, but if we could know that, that is 
important. And to dovetail a little bit what the Chairman was 
saying is it a problem when you have multiple agencies 
inspecting food or is it clear division of labor? You know I am 
a physician and if you have this one inspecting you over here, 
and there are different rules each time you don't know exactly 
how to behave as a producer. And I agree with the Ranking 
Member that there is a tremendous amount of expertise sitting 
right behind you.
    Mr. Almanza. Oh, absolutely, and we meet with the industry 
once a month. We have industry meetings where the industry 
comes in and we meet with them. We go over some of the current 
issues that are occurring, some of the publications, some of 
the notices, some of the directives that we are going to issue. 
Can we do a better job of getting their input? I agree, yes, I 
think we can. One interesting thing that I would like to say is 
I used to work for the industry before I came to work for FSIS, 
so I understand their role, and certainly when I sit--I was 
talking about the risk ranking, I didn't mean to imply that 
there was some enormous risk--but in order to have a uniform 
system for inspection, I would say that there has to be a risk 
ranking on something, and you base it on foodborne illnesses.
    I mean there has to be a number of things that come into 
play. It is not going to be just because somebody gets ill 
somewhere the risk goes up. I mean you have to take certain 
things into consideration, was the product cooked properly and 
things of that nature.
    Mr. Roe. Sure. Back again to the question of multiple 
agencies, could you speak to that?
    Mr. Almanza. Well, as I said, when you look at single 
agencies or multiple agencies, that is certainly something that 
is going to be decided above my level. But I will say that 
priority number one is going to be food safety, and certainly 
risk in how different products are regulated and how they are 
inspected. In particular, I think of food safety as being a 
strong component of that when you look at how those three 
things come together. When you build a uniform system it 
doesn't really matter whether it is one agency or multiple 
agencies, it just has to be a uniform way of doing it based on 
risk.
    Mr. Roe. I think where I am coming from is, and looking at 
the producers back there, I remember it is kind of amusing, but 
the government does an examination of our hospitals--well, they 
go into one of our hospitals and have us tear the whole 
bathroom out and fix it and then the state comes back and says 
fix it back like it was. And I wonder if when you have multiple 
agencies--that was a great question the Chairman asked--is that 
a real problem. Maybe you are not in a position, it sounds 
like, to answer that question, but I think that is one we ought 
to look at. I tried to understand, I read all of this how it is 
inspected and it is confusing at best.
    Mr. Almanza. Well, FSIS has a daily presence in every 
single establishment, and we inspect every single animal that 
is slaughtered. In processing facilities we have an inspector 
that goes to the facility and performs specific tasks every 
single day. That is our system of inspection. So if we look at 
risk, and I am talking about in a broad sense--and I am not 
talking about just meat, poultry, and eggs--but if you look at 
risk associated with products then you will start having a 
better idea of whether it is better to have a single food 
safety agency or multiple agencies. I won't be able to make 
that decision. It certainly would be above my level.
    Mr. Roe. Thank you, Mr. Chairman.
    The Chairman. The gentleman from California, Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman, for holding this 
important hearing as it relates to food safety. Obviously, 
American consumers care very much about the safety of their 
food that they consume. I want to thank Congressman Markey for 
deferring. I am trying to get back to California. I have a 
number of questions, so let us get to the quick of it here, Mr. 
Almanza.
    Mr. Almanza. Yes, sir.
    Mr. Costa. First of all, any time you have a new 
Administration coming in and you have the transition, you have 
the acting assistants and so forth, and so on, and, obviously, 
until the new team gets confirmed and in place--I do want to be 
focused that the folks that are acting directors, acting 
assistant secretaries--so that you are not in a position where 
they are promulgating regulations without the appropriate time 
and input until everybody gets their feet on the ground. You 
are not doing anything like that?
    Mr. Almanza. No, sir.
    Mr. Costa. And you don't have any inclination that that is 
going to be taking place?
    Mr. Almanza. No, sir.
    Mr. Costa. Food safety, obviously the key to that is risk 
assessment and risk management, and USDA has, generally, a very 
good track record over decades on beef and poultry. But you 
reference in your testimony food safety assessments that you 
conduct every 4 years. Could you give the Committee a bit more 
detail of what goes on in a food safety assessment, who 
conducts the reassessments, what sort of training these 
personnel receive to ensure that they can perform the 
evaluations quickly?
    Mr. Almanza. Yes, sir. We have what we call EIAOs--we are 
full of acronyms at FSIS--which are Enforcement Investigation 
Analysis Officers, that are put through a 4 week course down in 
College Station. What they do is they are trained to analyze 
data and to look at the food safety systems within an 
establishment, and to be able to make determinations whether 
their risks are identified and----
    Mr. Costa. Assessing the risks so you can make the proper 
determination on the management?
    Mr. Almanza. Yes, sir.
    Mr. Costa. On that point, the data obviously is important 
that you collect and that it be empirical in nature and not be 
influenced subjectively, at least from my perspective. Could 
you share with the Committee what you are doing to ensure that 
there is quality and consistency in that sense and empirical 
data issues?
    Mr. Almanza. Well, the EIAOs, they are all trained in the 
same manner. In fact, we just had a new enhanced training 
session for our EIAOs to be able to do it in a very uniform 
manner, whether it be in Virginia or whether it be clear across 
the country in California. We want a uniform way of food 
safety.
    Mr. Costa. Absolutely. I have significant beef and dairy in 
my area in the San Joaquin Valley, and we have a number of 
facilities there that deal with both dairy beef as well as beef 
cattle. In that sense, how do you determine or ascertain that 
the science-based data is consistently collected and properly 
analyzed from California to Georgia and everywhere in between?
    Mr. Almanza. Through the training that those EIAOs get, 
Congressman, what we have done is we have all of them put 
through the same 4 week training class, and then we have also 
just finished the ninth class of updating them in the enhanced 
methods of food safety assessments.
    Mr. Costa. Okay. I don't have much time left. I want to go 
quickly. Obviously, as we look, and I have legislation on food 
safety things and part of it is patterned after what we have 
done with the USDA on fresh foods and vegetables, but one of 
the things is that we have a uniform nationwide goal standard 
and that that goal standard be also applied to food that is 
imported from other parts of the world. Under your agency the 
equivalency requirements with foreign governments, and not 
individual companies seeking to export product to the U.S., do 
you believe the system is effective?
    Mr. Alamanza. Yes, I do.
    Mr. Costa. Why do you think you prefer this instead of 
company specific equivalency?
    Mr. Alamanza. Why do I believe----
    Mr. Costa. As opposed to--I mean my understanding is you 
prefer this to a company specific equivalency.
    Mr. Alamanza. Oh, okay. Because when you deal government to 
government, actually what you have done is the government takes 
from the foreign government, takes a responsibility in assuring 
that the products that they are going to be certifying to be 
shipped to the United States are equivalent to what we require 
in the United States.
    Mr. Costa. All right. My time has expired, but I want to 
thank Congresswoman Markey for deferring, and I want to thank 
the Chairman for holding this important hearing. I have a 
number of other questions that I will submit not only for this 
gentleman but also for the second panel, and keep on continuing 
doing the good work you are doing.
    The Chairman. Thank you very much, Mr. Costa. We will now 
hear from the gentlewoman from Colorado, Ms. Markey.
    Ms. Markey. Yes. Thank you, Mr. Chairman, for holding this 
hearing, and I also want to echo Congressman Roe's statement 
that we do have a safe food supply, generally, in this country. 
We can always work on doing better. But I want to talk a little 
bit as well about imported food, because there is, of course, a 
lot of concern about products that are imported from other 
countries. Do you feel that the risk is greater for imported 
foods as opposed to inspecting foods grown or processed in this 
country, and what also do you feel are--you mentioned some of 
the steps that are taken to ensure safety of imported products, 
but do you feel that there are any weaknesses at all? For 
instance, do you feel like you have enough resources, staff to 
adequately inspect foods that are imported from other 
countries?
    Mr. Almanza. Okay. Your first question, do I believe that 
there is a higher risk? I don't necessarily believe, for the 
products that we regulate, that there is a higher risk because 
of the type of inspection that we provide for those products. 
We do 100 percent re-inspection of products that are imported 
that are meat, poultry, and processed eggs, so when we have 
that system, and we are continuously monitoring the system at 
the different ports, I feel confident that we minimize that 
risk. As far as your second question, can we do better? 
Certainly, I think we can do better. I think that we currently 
have adequate staff for the products that we are receiving. I 
know that as other countries are asking to be eligible to 
export to the United States and perhaps there would be an 
increase then we may need some additional inspection personnel, 
but at the time I think we are perfectly fine.
    Ms. Markey. Let me just follow up with another question. 
You talked a little bit about recalls, but can you explain how 
FSIS handles a recall, what are the steps?
    Mr. Almanza. Well, when we have an occurrence what we do is 
we form a recall committee from within the agency, different 
parts of the agency, to look at different parts of what was the 
risk or what occurred that is going to be necessitating a 
recall. Is it an allergen, is it an adulterant, those things 
are weighed before the agency decides to contact the 
establishment or the producer to decide whether there will be a 
recall or not.
    Ms. Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you. Ranking Member Neugebauer.
    Mr. Neugebauer. Let me ask you just a couple of questions, 
Mr. Almanza. What is the status of HACCP with eggs?
    Mr. Almanza. We are trying to move that forward but I can 
submit for the record some information on that. I don't know 
exactly where we stand on it right now.
    Mr. Neugebauer. But you will submit that for the record to 
the Committee?
    Mr. Almanza. Yes, sir.
    Mr. Neugebauer. Thank you so much. In your testimony, 
excuse me, you discussed the importance of looking at risk 
earlier, as we discussed, and the need to ask questions about 
the level of inspection that is necessary for different foods. 
As FSIS works through this process, do you see a need to change 
any of FSIS' underlying statutes so that the agency can 
effectuate the changes it determines are necessary?
    Mr. Almanza. I think it is a little bit early in the 
process to make that determination. As I said earlier, if there 
is a risk ranking for all products, I think once we have a good 
gauge on that, then we would be able to answer that adequately.
    Mr. Neugebauer. As you discussed, for FSIS to establish 
meaningful performance objectives, the agency needs accurate 
data attributing illnesses to specific foods. What needs to 
happen research, funding or otherwise, for this to be 
accomplished? What agency should be responsible for making this 
happen?
    Mr. Almanza. One of the things that we are currently 
working on is our new Public Health Information System and when 
we put that in place, we are going to move from a passive 
system, PBIS, to a more real time system which is in my opinion 
one of the most exciting things to come along. Being a former 
inspector and being able to look at the data that is generated 
in the field because there are different facets to this system, 
for example, there will be a facet that provides what we call 
Predictive Analytics. There will be facets to it where we will 
be able to see trends within an establishment within a part of 
the country, and then also as a nation if something is going 
wrong we will be able to detect those, hopefully, before any 
outbreaks. It is just a system that I believe is going to move 
us way into the--it would be kind of like riding a horse to 
driving a car in my opinion.
    Mr. Neugebauer. And the agency to make this happen would be 
the USDA?
    Mr. Almanza. Yes, sir.
    Mr. Neugebauer. As you mentioned, one of FSIS' goals is to 
conduct food safety assessments in each plant at least every 4 
years. Are you on a pace to meet that goal and what is FSIS 
learning by carrying out these assessments?
    Mr. Almanza. Yes, we are on pace to accomplishing a food 
safety assessment every 4 years, and what are we learning? We 
are getting a lot of good information from within the 
establishments, what is occurring within establishments both 
good and what is wrong. I think that it is a good tool for the 
agency to be able to have data on every federally-inspected 
establishment.
    The Chairman. Okay. Thank you very much. The gentleman from 
Texas, Mr. Conaway, would you have any questions at this time?
    Mr. Conaway. Just a bit of a follow-up there. As you are 
doing these assessments on each of these plants and you come 
across things that are not working and things that are 
violations or whatever, do you have some sort of a 
communication tool to broadcast throughout the system of 
regulated plants to say, these are things we are seeing going 
on, make sure you are not doing them at your plant, that would 
take advantage of whatever information you are gaining when you 
do these reviews?
    Mr. Almanza. If we see a trend in that, we certainly 
communicate that to the industry in meetings that we have with 
the industry on a monthly basis.
    Mr. Conaway. When you say industry, do you mean industry 
representatives or everybody--how many plants are there?
    Mr. Almanza. About 6,200.
    Mr. Conaway. So you wouldn't have all 6,200 plants 
represented at each meeting?
    Mr. Almanza. No, sir, but we have industry representatives 
that we meet with.
    Mr. Conaway. Any thoughts of having some sort of an e-mail 
blast system where all 6,200 would have e-mail addresses that 
you would have that you could send that information going out 
directly to them rather than through representatives?
    Mr. Almanza. We have an outreach office that communicates 
directly with our small and very small producers, and if we 
were to see something like that certainly that would be within 
the realm of possibility, yes, sir.
    Mr. Conaway. To set that up or that you have already got 
one in place that you could use?
    Mr. Almanza. We have one in place that we can use.
    Mr. Conaway. So you have e-mail addresses on all 6,200?
    Mr. Almanza. I don't know that every 6,200, but I would say 
the vast majority.
    Mr. Conaway. Okay. Have you had occasion to come across 
immediate information, some immediate concern across the 
system, where you had broadcast it?
    Mr. Almanza. Not that I know of.
    Mr. Conaway. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you. How do you feel, Mr. Almanza, how 
do you feel about third party audits? Is there an appropriate 
role for third party audits by the industry?
    Mr. Almanza. I think certainly that is a useful tool. I 
don't think that it is a substitute for Federal oversight or 
Federal inspection, but it is a useful tool.
    The Chairman. All right. Let me just ask you one more 
interesting question. What about imports? We import some of our 
food products, and there has been a lot of concern about 
products from other countries. How does FSIS ensure the safety 
of imported food products?
    Mr. Almanza. Okay. When products are imported into the 
United States, we have inspectors that are at each of the 
ports. First, there is a database that they access to make sure 
that the country that the product is coming from is an approved 
country. Second, they have to check and make sure that the 
product, the specific product, that is coming in is one of the 
products that that country is eligible to export to the United 
States. Then, third, they do an inspection of the load before 
it enters into the country.
    The Chairman. Thank you. Just one final question I have. 
The President has put together a Food Safety Working Group. How 
do you assess its performance so far?
    Mr. Almanza. It is early. They have had a couple of 
meetings. I have been able to sit down in a couple of them. I 
think it is very progressive. It is something that will move 
the mark, and it certainly should gain some support because it 
is something that will help us get to where we need to get to.
    The Chairman. How would you--you are in a unique position 
here. It might be good to end this on a grading system. How 
would you grade our food safety program in this country, A, B, 
C, D?
    Mr. Almanza. I could only speak for meat, poultry, and egg 
products, and I would give it an A+ as far as safety, the 
safety of the products. Like I said, I used to work for the 
industry and certainly working for FSIS, it will be 31 years 
May 5, and I have seen a lot, but our meat, poultry, and egg 
products that we regulate, I think an A+.
    The Chairman. On that very positive note, we will end your 
presentation, and thank you very much. We will now have the 
second panel to come forward.
    Mr. Almanza. Thank you.
    The Chairman. I certainly want to thank you, our second 
panel, and welcome you to our Committee. Let me very briefly 
introduce our second panel, a very distinguished panel, I might 
add. First, we have Mr. J. Patrick Boyle, President and CEO of 
the American Meat Institute here in Washington, D.C. Thank you 
for coming. Dr. James ``Bo'' Reagan, Senior Vice President, 
Research, Education and Innovation, National Cattlemen's Beef 
Association here in Washington. Ms. Jill Appell, pork producer, 
Appell's Pork Farms, Inc., Past President of the National Pork 
Producers Council, Altona, Illinois. Dr. Elizabeth Krushinskie, 
Director of Quality Assurance and Food Safety, Mountaire Farms, 
Inc., on behalf of the National Chicken Council, Millsboro, 
Delaware. Dr. Michael Rybolt, Director, Scientific and 
Regulatory Affairs, National Turkey Federation in Washington. 
Mr. Elliot P. Gibber, President, Deb-El Foods, on behalf of 
United Egg Association's Further Processors Division, 
Elizabeth, New Jersey. And Mr. Barry L. Carpenter, Chief 
Executive Officer, National Meat Association, Oakland, 
California. Welcome to all of you. Thank you very much. We will 
begin with you, Mr. Boyle.

STATEMENT OF J. PATRICK BOYLE, PRESIDENT AND CEO, AMERICAN MEAT 
                  INSTITUTE, WASHINGTON, D.C.

    Mr. Boyle. Thank you very much, Mr. Chairman, Members of 
the Committee. AMI appreciates the opportunity to provide 
perspective and, hopefully, some insight into our nation's food 
safety inspection system for meat and poultry products. Food 
safety is the Institute's number one priority and for the past 
10 years has been addressed by AMI members in a non-competitive 
manner by sharing best practices and new technologies amongst 
themselves to improve food safety for the good of the industry 
and of our customers. Today, I would like to highlight some of 
the significant food safety improvements in meat and poultry 
products and the important role USDA plays in overseeing them. 
The Committee will note that I have a PowerPoint presentation 
to accompany my remarks and a technical expert on my right.
    First, the meat and poultry industry supports a strong 
Federal inspection system, and we have a very strong system. 
Eight thousand employees of FSIS inspect approximately 6,200 
domestic meat and poultry operations, and an additional 2,000 
Federal employees with FSIS provide supervision and support 
services at a total cost of more than $1 billion a year. Plants 
processing animals are inspected during all hours a plant is 
operating. Plants processing meat and poultry products are 
inspected at least on a daily basis. For imported meat and 
poultry products Federal law requires the foreign countries 
inspection system to be the equivalent of our U.S. meat and 
poultry inspection system. Thirty-three foreign countries are 
currently approved to ship products to the U.S. and each 
foreign inspection system is audited annually.
    All meat and poultry products arriving at our borders also 
are subject to re-inspection and laboratory analysis. Seventy-
five import inspectors conduct these activities at 150 official 
import establishments. More than a decade ago, FSIS and the 
industry embraced a major shift in the approach to food safety 
programs by adopting the principles of prevention embodied in 
HACCP. In fact, in 1993, it was the American Meat Institute 
that formally petitioned USDA for such a mandate. FSIS 
oversight does not stop with HACCP regulations. FSIS assures 
processes are scientifically validated. Teams of expert 
auditors conduct periodic in-depth food safety reviews, which 
can take days or weeks to complete and may involve extensive 
microbiological sampling of a plant's environment and its 
finished products.
    Annually, FSIS conducts more than 80,000 microbiological 
tests to verify the production processes are under control. 
These tests are in addition to the several million 
microbiological tests the industry does each year. In addition 
to process control programs, the plan is required to have 
written standard sanitization operating procedures that 
prescribe how the operating environment will be maintained in a 
sanitary condition. We clearly have a strong intensive Federal 
meat and poultry inspection system, but it is important to 
recognize only the industry can produce safe food, and we have 
been making noteworthy progress.
    Since 2000, the industry has reduced the prevalence of E. 
coli O157:H7 in ground beef by 45 percent to less than \1/2\ 
percent. The prevalence of Listeria monocytogenes in ready-to-
eat meat and poultry products has been reduced by 74 percent to 
less than \4/10\ of 1 percent. We have seen similar improvement 
in the incidents of foodborne illness reported by the CDC. 
Since 2000, illnesses caused by E. coli O157:H7 are down by 40 
percent and listeriosis is down by ten percent with much of the 
improvement actually occurring before 2000, the years that were 
not captured in this graph. And we have not had a single 
product recall associated with an outbreak of listeriosis over 
the past 6 years.
    As Congress considers various bills to reform FDA oversight 
a variety of additional regulatory authorities are being 
proposed, I would like to address three of them. First, 
microbiological performance standards. AMI believes that they 
can be a useful tool, if properly constructed, to achieve a 
public health objective and are scientifically based to measure 
food safety. Our experience with FSIS performance standards 
show us that some of them have worked and some of them have 
not. Second, civil money penalties: AMI believes very severe 
penalties are already in place for meat and poultry plants. For 
example, FSIS can detain and seize adulterated products in 
commerce, as well as retain product at the plant, thereby 
preventing it from entering commerce.
    Federal inspectors also have the authority to shut down a 
plant at a moment's notice if food safety violations are 
identified. More serious violations can result in Federal 
inspectors being withdrawn from the plant and the resulting 
closure of the business, and plant management can be criminally 
prosecuted for food safety violations. It is difficult to 
comprehend how additional civil money penalties would improve 
meat and poultry safety. And, finally, Mr. Chairman, mandatory 
recall authority: AMI believes such authority is needlessly 
redundant. Industry has every incentive to remove contaminated 
product from the marketplace to reduce potential liability, and 
the detention and seizure authority of FSIS provides the agency 
with more than sufficient leverage to compel a so-called 
voluntary recall. In short, the concept of mandatory recall is 
a solution in search of a problem. Thank you very much for the 
opportunity to appear today, and I look forward to answering 
any of your questions.
    [The prepared statement of Mr. Boyle follows:]

  Prepared Statement of J. Patrick Boyle, President and CEO, American 
                    Meat Institute, Washington, D.C.
    Good afternoon, Mr. Chairman, Ranking Member, and Members of the 
Subcommittee. Thank you for allowing me the opportunity to appear 
before this Subcommittee. My name is Patrick Boyle and I am the 
President and CEO of the American Meat Institute (AMI). AMI has 
provided service to the nation's meat and poultry industry--an industry 
that employs more than 500,000 individuals and contributes more than 
$100 billion in sales to the nation's economy--for more than 100 years.
    AMI's 200 members include the nation's most well-known meat and 
poultry food manufacturers. Collectively, they produce 90 percent of 
the beef, pork, veal and lamb food products and 75 percent of the 
turkey food products in the U.S. AMI's membership is extremely diverse, 
ranging from large, publicly traded companies that employ thousands to 
very small companies with as few as two employees. Indeed, more than 
half of AMI's members are small, family-owned businesses employing 
fewer than 100 individuals. We have one member company with just three 
employees. These companies operate, compete, sometimes struggle, and 
mostly thrive in one of the toughest, most competitive and certainly 
the most scrutinized sectors of our economy: meat and poultry packing 
and processing.
    AMI appreciates the opportunity to provide perspective and 
hopefully insight into our nation's food safety inspection system for 
meat and poultry products. Food safety is the Institute's number one 
priority. Each year, the AMI Board of Directors establishes priorities 
to direct the Institute. Food safety has topped the list for the past 
decade. In 1999, food safety was made a non-competitive issue by the 
organization which provided top management commitment to share best 
practices and new technology to improve food safety for the good of the 
industry.
    We all know that food safety has been in the news and because of 
that publicity a common refrain heard in Washington and other venues is 
that the U.S. food safety regulatory system is broken and has failed 
the American people. Indeed, a great deal of attention has been devoted 
to what is wrong and the changes needed to assure us that the food we 
consume is safe. Although some of the criticism may be warranted, a 
closer look at our meat and poultry food safety systems yields a 
different conclusion.
    lllnesses associated with meat and poultry consumption have 
declined. Nearly one billion meals are consumed each day in the United 
States without incident (slide 1). For context, human illness 
statistics published by the Centers for Disease Control and Prevention 
show that the pathogens most commonly associated with meat and poultry 
make up only a fraction of the total foodborne illnesses and deaths in 
the U.S. (slide 2). These statistics are not provided to minimize each 
and every illness, hospitalization, or death associated with food 
consumption, but to put the risk into proper context.
    Is the sky falling--no, but most rational individuals still believe 
that food safety can be improved. I would like to discuss with you 
today some of the real improvements the meat and poultry industry has 
made and the important role government oversight plays in assuring that 
the industry meets its responsibility to produce safe food.
    First, the meat and poultry industry supports a strong Federal 
oversight system--and we have a strong system. The approximately 8,000 
employees of USDA's Food Safety and Inspection Service (FSIS) inspect 
approximately 6,300 domestic meat and poultry operations and an 
additional 2,000 Federal employees provide supervision and support 
services, at a total cost of more than $1 billion. Plants processing 
animals are inspected during all hours the plant is operating. Plants 
preparing meat and poultry products are inspected at least daily. 
(Slide 3).
    For imported meat and poultry products, Federal law requires the 
foreign country's inspection system to be equivalent to the U.S. 
system. Thirty-three foreign counties are currently approved to ship 
products to the U.S. and each foreign inspection system is audited 
annually. All meat and poultry products arriving at our borders also 
are subject to reinspection and are routinely inspected and sampled for 
laboratory analysis. Seventy-five import inspectors conduct these 
activities at 150 official import establishments. (Slide 4).
    Another comment often heard is that the food safety system must be 
preventative. We agree. More than a decade ago FSIS and the industry 
embraced a major shift in the approach to food safety programs by 
adopting the principles of prevention embodied in the Hazard Analysis 
and Critical Control Point, or HACCP. In fact, in 1993 AMI petitioned 
USDA to mandate the implementation of HACCP in federally inspected 
plants in an effort to modernize the meat and poultry food safety 
inspection system. (Slide 5).
    Mandatory HACCP provides a framework for identifying potential 
hazards and implementing measures to control those potential hazards 
during the production process. The process is continually monitored to 
assure that critical food safety standards are met. Pre-planned 
corrective actions are prescribed if critical limits are not met. 
Records are kept and available to FSIS inspectors for review and 
procedures are established to verify that the system is working 
properly.
    FSIS oversight does not stop there. FSIS assures processes are 
scientifically validated. Teams of expert auditors conduct periodic in-
depth food safety reviews to complement the activities performed by the 
FSIS inspectors permanently stationed at the plant. These food safety 
assessments, or FSAs, can take days or weeks to complete and may 
involve extensive microbiological sampling of the environment and 
product. (Slide 6).
    During the course of a year, FSIS conducts more than 80,000 
microbiological tests to verify that federally inspected 
establishments' production processes are under control. FSIS conducts 
these verification tests in addition to the several million 
microbiological tests the industry does each year. (Slide 7).
    There is no finished product testing regime, however, that can 
guarantee that food products are pathogen-free or that they can be 
mishandled and remain safe to eat. Finished product testing is an 
important tool because it can show that process controls are effective 
and working, but it cannot eliminate every risk to a meaningful degree 
of certainty.
    In addition to process control programs, the plant is required to 
have written standard sanitation operating procedures that prescribe 
how the operating environment will be maintained in a sanitary 
condition. FSIS monitors plant sanitation before operations begin and 
while the plant is operating. Any deficiencies noted require immediate 
corrective action and failure to react appropriately can result in the 
plant being shut down by FSIS officials until the deficiencies are 
corrected. (Slide 8).
    We have a strong Federal meat and poultry inspection system, but it 
is important to recognize only the industry can produce safe food. 
Although food processors and handlers can minimize risks through the 
use of systems discussed above and other good management practices, 
there can be no absolute certainty that all food products are free from 
all risks. Notwithstanding that caveat, progress has been and is being 
made.
    Specifically, government data show a decline in pathogen prevalence 
on meat and poultry products. Since 2000, the industry has reduced the 
prevalence of E. coli O157:H7 in ground beef by 45 percent to less than 
\1/2\ percent. (Slide 9). The prevalence of Listeria monocytogenes in 
ready-to-eat products has been reduced by 74 percent to less than 0.4 
percent. (Slide 10). We have seen similar improvement in the incidence 
of foodborne illness reported by the Centers for Disease Control and 
Prevention. In that regard, since 2000, illnesses caused by E. coli 
O157:H7 are down by 40 percent and listeriosis is down by ten percent 
with much of the improvement occurring before 2000. (Slides 11-12).
    A question often debated is whether microbiological performance 
standards are needed to improve public health. To answer that question, 
it is instructive to look at the existing Salmonella performance 
standards that are codified in the meat and poultry regulations.
    Since the performance standards were promulgated, the prevalence of 
Salmonella in chicken is down by 58 percent, in pork it is down by 68 
percent, and in ground beef it is down by 64 percent. (Slides 13-15). 
Looking at these numbers one might conclude the Salmonella performance 
standards are a great success. Of significance, however, is the fact 
that the incidence of foodborne illness associated with Salmonella has 
actually increased slightly over the same time period. (Slide 16).
    One might ask whether microbiological performance standards are a 
useful tool? The answer is they can be if properly constructed to 
achieve a public health objective and if they are scientifically based 
to measure whether food is safe and not injurious to public health. 
Conversely, I would suggest that a performance standard based solely on 
achieving an arbitrary outcome that yields no public health benefit is 
inappropriate.
    As the food safety debate heats up, some Congressional Members and 
others have called for enhancing the enforcement powers of the 
inspection agencies, including civil monetary penalties and other 
sanctions. For meat and poultry plants, however, very severe penalties 
already are in place.
    Specifically, FSIS can detain and seize adulterated products in 
commerce, as well as retain product at the plant thereby preventing it 
from entering commerce. Federal inspectors also have the authority to 
shut down a plant at a moment's notice if food safety violations such 
as insanitary conditions are identified. More serious violations can 
result in Federal inspectors being withdrawn from the plant, which 
results in the plant not being able to operate. And, plant management 
can be criminally prosecuted for food safety violations. It is 
difficult to comprehend how additional remedial penalties would improve 
food safety.
    Another subject of some controversy is mandatory recall. The cry 
for mandatory recall ignores a simple fact: Industry has every 
incentive to remove contaminated product from the marketplace to reduce 
potential liability. Experience shows us that the speed with which 
contaminated meat and poultry product is removed from the market will 
not improve with mandatory recall. In most cases, meat and poultry 
products are recalled within hours after a problem is discovered. And 
industry cooperation to execute recalls has been excellent. (Slide 17).
    To date, no meat company has ever refused to conduct a warranted 
recall and in the highly unlikely event such a circumstance ever were 
to occur, the previously mentioned threat of FSIS product detention and 
seizure, coupled with the agency's ability to directly inform the 
public not to consume the product because the company refused to recall 
the affected product, not to mention the ramifications for the company 
at the producing plant, is more than sufficient leverage for FSIS. To 
my knowledge, such a situation has never occurred. In short, the 
concept of mandatory recall is a solution in search of a problem.
    Let me conclude with some suggestions on what will improve food 
safety.

    (1) With respect to government inspection programs the focus must 
        be on systems designed and implemented to protect public 
        health. Inspection activities that do not have a direct impact 
        on public health waste scarce resources and divert attention 
        from issues of public health importance.

    (2) Continual improvement of preventive process control systems is 
        needed. Mandatory HACCP and SSOP that focus on prevention 
        versus detection is critical and the rigor of the control 
        system should be proportional to the public health risk.

    (3) Government agencies must be fully funded to help assure the 
        safety of domestically produced and imported food.

    (4) Resources should be allocated based on the public health risk 
        posed by a particular food and the control measures that are 
        used during the manufacturing and distribution process to 
        control such risk.

    (5) Objective and achievable food safety standards that are 
        scientifically determined to measure whether the food is safe, 
        not adulterated, and non-injurious to public health are needed. 
        Food safety standards must be based on quantifiable, measurable 
        criteria and have a direct impact on public health.

    (6) The U.S. must assure that such standards are compatible with 
        internationally recognized standards, such as Codex 
        Alimentarius, to protect the health of consumers, ensure fair 
        trade practices, and promote the coordination of food standards 
        development by the international community.

    (7) Efforts should be focused on conducting a more thorough 
        analysis to identify how and why a foodborne disease outbreak 
        occurred. Each government agency involved in investigations of 
        foodborne disease outbreaks or product recalls should be 
        required to report the reasons such incidents occurred and 
        those reports should focus on how the food product was 
        harvested, processed, distributed, prepared, and consumed to 
        provide detailed information that will assist food handlers in 
        preventing future occurrences.

    (8) Rigorous government inspection and testing is needed to verify 
        that consumer-ready products are safe. Test results should be 
        performed under accepted sampling and analytical protocols and 
        should meet objective food safety standards. Testing to 
        determine the adequacy of process control at interim points 
        during harvesting, manufacturing, and distribution should be 
        conducted by the industry.

    (9) Establishment of a public-private partnership to design and 
        implement a comprehensive research program to improve food 
        safety is needed. The research program should be directed by a 
        board of qualified food safety experts from government, 
        academia, and industry. The program should focus on developing 
        risk mitigation and intervention strategies to prevent 
        foodborne disease outbreaks.

    Let me provide some parting thoughts. It is indisputable that 
producing safe food is good for customers and good for business. To 
that end, the meat and poultry industry has been working to meet the 
challenge of continuously improving the safety of the products 
produced, but the job is not done. Industry pledges to cooperate with 
all parties to ensure that the U.S. maintains the safest meat and 
poultry supply in the world.
    Thank you for the opportunity to testify before the Subcommittee 
today. I am happy to answer any questions that Members may have 
regarding my testimony and the food safety system for meat and poultry 
products.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Thank you very much. Dr. Reagan.STATEMENT OF JAMES O. ``BO'' REAGAN, 
   Ph.D., SENIOR VICE PRESIDENT--RESEARCH, EDUCATION AND INNOVATION,
  NATIONAL CATTLEMEN'S BEEF ASSOCIATION; CHAIRMAN, BEEF INDUSTRY FOOD 
                    SAFETY COUNCIL, WASHINGTON, D.C.

    Dr. Reagan. Chairman Scott, Ranking Member Neugebauer, and Members 
of the Committee, I am Bo Reagan and I serve as Senior Vice President 
of Research, Education and Innovation for the National Cattlemen's Beef 
Association. I also have the privilege of serving as the Chairman of 
the Beef Industry Food Safety Council, which is also referred to as 
BIFSCo. I am also a member of NCBA. I appreciate the opportunity to 
testify today with regard to the beef industry's role in producing the 
most affordable, nutritious and safest food supply in the world.
    I would like to start out by emphasizing that everyone plays an 
important role in the safety of food. All beef is subject to strict 
government oversight, and everyone who plays a role in the production 
chain is committed to producing safe beef and beef products. Every meat 
processing facility undergoes daily, ongoing USDA inspections. FSIS 
inspectors are in the meat processing plants daily performing their 
inspection duties, as well as reviewing the HACCP plans. HACCP, as you 
well know, stands for Hazard Analysis Critical Control Points, but it 
is important for you to note that these plans were proactively 
developed by the food industry as a method to identify potential 
hazards, and then to identify methods of preventing them.
    In 1996, FSIS enacted a rule requiring HACCP plans for all beef 
processing facilities. This program has been very successful as it 
focuses on the process controls rather than testing as a means to 
protect human health. You cannot test your way to safety so you must 
focus on the processes and the controls that are in place to reduce 
potential hazards. On the research promotion and education side of the 
beef industry in my role at NCBA, I had the privilege to oversee our 
beef safety research, consumer education, as well as development of new 
beef products. Throughout the years, our beef industry and USDA have 
created partnerships in the beef safety research. This collaboration 
effort is vital as USDA and the industry are able to leverage our 
dollars and utilize the science expertise of not only the folks in 
NCBA, but also in USDA's Agricultural Research Service to ensure that 
safety challenges and knowledge gaps are being properly addressed.
    It is imperative that USDA continues and increases ARS funding for 
food safety research. In order to achieve the goal of food safety, we 
have to understand the science of pathogens and the interventions that 
may be used to control them or their environment. As the food safety 
policy discussions continue, we encourage Congress to work with FSIS to 
focus on the resources needed to effectively implement the science and 
risk-based regulations that are currently in place. But, just as 
important is the need for employee training and communication of any 
new regulatory changes so that there is not any confusion or 
misinterpretation of the law.
    We realize that communicating regulatory changes to personnel 
throughout the country is a challenge, but this area is a concern for 
the beef industry. With regards to small and very small operations, 
there is a greater need of information and resources from USDA to be 
provided for these businesses. We encourage USDA to continue and 
increase their outreach efforts to these small businesses. Last, but 
not least, consumers will always play an important role to ensure the 
safety of their food. The beef industry has created numerous resources 
such as the safeandsavory160.com for consumers where they can go and 
learn more about the proper storage, handling, and cooking of beef and 
beef products.
    Any assistance that the Federal Government can provide to ensure 
the consumers learn more about their important role in food safety and 
the education resources that are available, that would be very 
appreciated. Since 1993 our cow producers have invested more than $27 
million of their own funds in beef safety research, and the beef 
industry as a whole invests more than $350 million each year in 
ensuring the safety of beef and beef products. Above all, safety is a 
non-competitive issue for our industry and the industry has committed a 
broad coordinated effort to solve pathogen issues by developing 
industry wide science and risk-based strategies to address safety 
challenges.
    Many thanks for the opportunity to be with you today, and I look 
forward to having the opportunity to answering questions that you might 
have.
    [The prepared statement of Dr. Reagan follows:]

   Prepared Statement of James O. ``Bo'' Reagan, Ph.D., Senior Vice 
                              President--
     Research, Education and Innovation, National Cattlemen's Beef
 Association; Chairman, Beef Industry Food Safety Council, Washington, 
                                  D.C.
    Chairman Scott, Ranking Member Neugebauer, and Members of the 
Committee, my name is Bo Reagan and I am the Senior Vice President of 
Research, Education and Innovation for the National Cattlemen's Beef 
Association (NCBA) which oversees beef safety research, consumer 
education and the development of new beef products. I'm the Chairman of 
the Beef Industry Food Safety Council (BIFSCo), and also a member of 
NCBA. I appreciate the opportunity to testify today about the beef 
industry's role in producing the most affordable, nutritious and safest 
food supply in the world.
    As you know, The Beef Checkoff assesses a $1 per head fee for every 
beef animal sold. The Checkoff is managed by USDA and the Cattlemen's 
Beef Board (CBB). NCBA is the largest contractor of The Beef Checkoff 
and manages education, promotion and research priorities relating to 
beef and beef products funded by the Checkoff. In addition to NCBA's 
Checkoff activities, we also have a policy division in Washington, D.C. 
that is not funded by The Beef Checkoff. The policy office works 
closely with NCBA members to represent their views in the legislative 
and regulatory bodies of our government.
    I would like to take a few minutes to share some of the background 
about the beef industry's commitment to beef safety. The beef industry 
focus research on a variety of pathogens and two pathogens of 
particular interest to the beef industry are Salmonella and E. coli 
which are commonly found in the gastrointestinal tracts of humans and 
animals. Most strains do not cause illness, however, in 1993 E. coli 
O157:H7 became a research priority after an illness outbreak in the 
Pacific Northwest was linked to ground beef.
    In light of the outbreak, the research focus was placed on where 
the most impact could be accomplished and the research investment was 
made at the processing plant level--post harvest. At that time 
approximately 800,000 head of cattle were processed at about 35 
processing facilities. The research resulted in multiple interventions 
being developed by industry, accepted by the government and implemented 
in the beef industry over a 10 year period.
    In 1996, USDA's Food Safety and Inspection Service enacted a rule 
requiring HACCP (Hazard Analysis Critical Control Point) plans for all 
beef processing plants. It is important to note that HACCP plans were 
pro-actively developed by the food industry as a method to identify the 
potential hazards and then prevent them. The following year BIFSCo was 
formed to coordinate a broad effort to solve pathogen issues, focus on 
research and consumer education. Representatives from all segments of 
the beef industry belong to BIFSCo and work together under the founding 
principles that safety is a non-competitive issue to develop industry-
wide, science-based strategies to address safety challenges, 
particularly E. coli O157:H7.
     In the late 1990s, the live animal or pre-harvest area became the 
focus of research in an effort to collect data about the ecology of E. 
coli O157:H7. We needed to know more about the relationship between the 
pathogen and the live animal to develop interventions that could be 
used pre-harvest and to continue improving post-harvest interventions 
and their efficacy. By developing this knowledge, technologies were 
discovered that could affect the shedding and prevalence of E. coli in 
live animals. Projects funded by The Beef Checkoff serves an important 
role in testing the effectiveness of new technologies including 
vaccines, sodium chlorate, direct fed microbials and neomycin, all of 
which reduce the prevalence of pathogens in live animals.
    The current research program focuses on building the knowledge base 
of E. coli O157:H7 and Salmonella by identifying the where, why and how 
it survives from pre- to post-harvest. We are also taking into 
consideration the impact of production practices, processing systems 
and interventions and the possible development of resistance between 
the pathogens and interventions. NCBA continues to evaluate how to 
optimize food safety systems not only for the current safety challenges 
but also for any potential future challenges.
    It is important to note that everyone plays an important role in 
the safety of food. All beef is subject to strict government oversight 
and everyone who plays a role in the production chain is committed to 
producing safe beef products. Every meat processing facility undergoes 
on-going USDA inspection, which includes review of their HACCP plans. 
Consumers also play an important role in food safety and should always 
follow the food handling, cooking and storage steps that are essential 
in preventing foodborne illness.
    America's beef producers and our partners will continue to dedicate 
significant time and resources to reduce the incidence of pathogens. 
Cattle producers' top priority is to produce the safest and highest 
quality beef in the world. This has been consistent throughout our 
industry's history and in our long-term efforts to continually improve 
our knowledge and ability to raise healthy cattle. To date, cattle 
producers have invested more than $27 million since 1993 in beef safety 
research, and the industry as a whole spends approximately $350 million 
every year on beef safety. Above all, safety is a non-competitive issue 
for the beef industry.
    Our producers believe that it is the responsibility of our 
government to give the industry the various tools needed to keep our 
food safe and reduce pathogens including E. coli O157:H7 in beef 
products. Interventions, both pre- and post-harvest are vital parts of 
a system of hurdles in beef production and processing. There is not a 
``silver-bullet'' for a common intervention application and because of 
the multi-hurdle approach it is not necessary that there be one.
    Beef packing plants and processers vary in size as well as in 
design, and nearly 100 percent of beef establishments use one or more 
of the safety interventions the beef industry has helped research, 
implement and validate. These interventions have been accepted by USDA 
and include hide washes, hand-held steam vacuums, spray washes, organic 
acid sprays and irradiation. In addition to the use of interventions, 
NCBA also believes that processing establishments should make an ardent 
effort to minimize the threat of foodborne illness and increase 
pathogen control through continual process improvements.
    It is essential that all safety programs be based on science, have 
a strong research foundation, focus on industry application and be 
communicated to the appropriate sector to implement. NCBA has worked 
diligently to find pre- and post-harvest interventions to decrease as 
much as possible, the potential load of bacterial pathogens in beef 
products. Currently, there are a variety of processing aids the 
industry may use to eliminate E. coli O157:H7 but microbial 
contamination continues to be an obstacle to overcome and the cattle 
industry remains committed to further reducing and eliminating the 
presence of E. coli O157:H7 in beef products.
    In terms of food safety, there is still work that needs to be done 
to accomplish the public health goals established for 2010. These goals 
include reducing the national incidence of Salmonella, E. coli O157:H7, 
Campylobacter and Listeria to 50% of their 1997 incidence.\1\ In order 
to meet and exceed the 2010 goals proven science-based technologies 
will need to be utilized. As well, NCBA consistently strives to work 
with all of our partners to research new science-based technologies and 
interventions that will continually contribute to the safety and 
quality of our products.
---------------------------------------------------------------------------
    \1\&Healthy people 2010 objectives: draft for public comment. 
Office of Public Health and Science. Washington: U.S. Department of 
Health and Human Services, September 15, 1998.
---------------------------------------------------------------------------
    With the current budget and economic situation facing our country, 
there has never been a more important time for our government and the 
beef industry to work together to achieve the common goal of beef 
safety. Throughout the years, there have been several opportunities for 
the beef industry and USDA to create a partnership on beef safety 
research. This collaborative effort is vital as USDA and the industry 
are able to leverage dollars and utilize the scientific expertise of 
USDA's Agricultural Research Service's (ARS) scientists to ensure 
safety challenges and knowledge gaps are being addressed proactively. 
Every year, the Checkoff funds and NCBA manages several ARS food safety 
research projects. Some of the projects have included the prevalence 
monitoring of pathogens from gate to plate, pre- and post-harvest 
intervention development, methodology improvements in accuracy and 
basic research on the genetics of pathogens. It is essential for the 
industry to utilize USDA personnel at meetings and workshops to ensure 
that we are working towards the same goal. It is common for the beef 
industry to invite USDA personnel to provide feedback when we are 
developing safety initiatives and programs to make sure that we are on 
target. For example, BIFSCo hosts an annual safety summit, E. coli 
workshops, and ``think tank'' meetings to address safety challenges, 
where USDA personnel are invited and often attend.
    NCBA and BIFSCo will continue to proactively develop educational 
programs to disseminate food safety information from USDA to the beef 
industry and consumers. BIFSCo noticed a lack of training tools 
regarding the N60 sampling method which prevented standardized 
application across all of the beef industry. BIFSCo created a training 
video which provides a visual tool for companies to use and it 
accompanies written best practices, a how-to guide, for the N60 
sampling method which are available to the public at www.bifsco.org. 
N60 has been accepted as the industry standard for sampling, and BIFSCo 
has worked with FSIS to have the video and best practices document 
distributed to 675 federally inspected facilities.
    Every year The Beef Checkoff funds a variety of research focused on 
consumers in order to assess their knowledge of beef safety. The 
research found that a substantial number of consumers did not properly 
handle and cook ground beef products. Since everyone plays an important 
role in beef safety NCBA developed Safe and Savory at 160 to emphasize 
the steps consumers should take to ensure food safety in their homes. 
Consumers can find tips and tools about safe food storage, handling and 
preparation, instructional videos and new burger recipes online at 
www.safeandsavory160.com.
    NCBA supports the establishment of realistic food safety objectives 
designed to protect public health to the maximum extent possible. It is 
important that the objectives be based on sound science with the 
realistic understanding that even under the best science-based 
operating procedures achieving zero is not possible. NCBA encourages 
FSIS to incorporate the objectives of existing regulatory programs, 
including HACCP and the Pathogen Reduction Act, which focus on process 
controls rather than testing as a means to protect public health.
    However, utilizing science-based principles and validating 
interventions used throughout the process effectively control the 
associated risks of E. coli O157:H7. NCBA will continue the industry-
wide collaboration efforts to educate consumers, the beef industry and 
regulatory authorities about science-based strategies that are 
realistic and can be utilized in raw beef production to reduce food 
safety risks.
    As Congress continues to discuss food safety we encourage you to 
work with USDA's Food Safety and Inspection Service (FSIS) and the 
regulated industries to achieve the common goal of food safety. It's 
essential that policymakers and regulators have a working knowledge and 
understanding of the industry and the processes it uses to produce safe 
beef products. The knowledge base is crucial so regulations do not 
become burdensome, be impractical or too costly for the industry to 
apply.
    Also, it is important for Congress to focus on the resources FSIS 
needs to effectively implement the science- and risk-based regulations 
that are already in place. It is imperative for USDA to increase ARS 
funding of food safety research. In order to achieve the goal of food 
safety, we have to understand the science of the pathogen and 
interventions that may be used to control not only the pathogen but 
also the environment.
    We encourage USDA to work with industry when planning educational 
or outreach events. This will help to ensure the necessary information 
is presented in a manner where attendees can easily understand the 
concepts and we encourage the use of interactive or ``hands-on'' 
demonstrations. Just as important is the need for employee training and 
the communication of any new regulatory changes to FSIS inspectors in 
the field so that there is not any confusion or misinterpretation of 
the law. We realize that communicating regulatory changes to personnel 
throughout the country is a challenge, but this is an area of concern 
for the beef industry that needs to be addressed. With regards to small 
and very small operations, there is a greater need of information and 
resources from USDA to be provided for these small businesses to 
utilize. BIFSCo has developed a series of ``Best Practice'' documents 
for the beef industry and several are targeted for the small and very 
small operations to use. We will continue our outreach to small and 
very small plants with educational materials and encourage USDA to 
place a stronger focus on communicating and providing information to 
these small businesses.
    Last, consumers will always play an important role to ensure that 
their food is safe. The beef industry has numerous resources for 
consumers to access to learn more about proper storage, handling and 
cooking of beef products. Any assistance the Federal Government could 
provide to ensure consumers are aware of these resources or know how to 
utilize them would be appreciated. The beef industry remains committed 
to safety, however, imposing new rules or regulations that are not 
based on science, risk assessments and industry application will only 
hinder food safety efforts.
    Another area of concern for beef producers is the misconception 
that an animal identification program is a necessary component for food 
safety. Animal identification programs are tools to help monitor and 
trace in the event of an animal health emergency. Animal ID systems do 
not enhance food safety, nor were they ever intended to. In addition, 
animal ID systems do not prevent animal disease; they are only a tool 
to help contain them. Producers currently utilize animal identification 
for herd management, genetic improvement and as a positive tool for 
their operations' marketing program.
    In closing, the beef industry will continue our multiple-hurdle 
approach to address food safety. It is imperative for our government to 
use sound science when evaluating the effectiveness of pre- and post-
harvest interventions and programs to address food safety concerns. 
Science-based intervention and management strategies coupled with safe 
food handling techniques, will help our industry reach its goal of 
providing a safe, high-quality product for the consumer. The beef 
industry cannot afford for the government to have an unscientific mis-
step that removes or limits valuable interventions as options for the 
industry to utilize for beef safety.
    I appreciate the opportunity to testify today about the beef 
industry's role in food safety. I have attached some background 
information on the beef industry and beef safety which you may find 
helpful. We look forward to working with you in the future.

                              Attachment 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Thank you, Dr. Reagan. Ms. Appell.STATEMENT OF JILL APPELL, PAST 
  PRESIDENT, NATIONAL PORK PRODUCERS COUNCIL; PORK PRODUCER, APPELL'S 
                      PORK FARMS, INC., ALTONA, IL

    Ms. Appell. Good afternoon, Chairman Scott, Ranking Member 
Neugebauer, and Members of the Subcommittee. My name is Jill Appell, 
and I am a pork producer from Altona, Illinois and past President of 
the National Pork Producers Council. I am pleased to present the pork 
industry's views on food safety. NPPC is an association of 43 state 
pork producer organizations and voice of the pork industry in 
Washington. Nationwide, more than 67,000 pork producers generate $34 
billion of gross national product and support 550,000, mostly rural, 
jobs. They provide 20 billion pounds of safe and nutritious pork 
annually. Producing safe pork begins on the farm, and pork producers 
have a long history of enhancing the safety of their products.
    The industry developed the Pork Quality Assurance<SUP>'</SUP> 
Program in 1989 and refined it in 2007. The program identifies 
practices that are potential food safety hazards and minimizes the risk 
through producer education. Many major packers require PQA 
Plus<SUP>'</SUP> certification as a condition for sale. Last year, the 
industry launched the We Care program which stresses ethical principles 
including promoting animal well-being, producing safe food, and 
protecting public health. Fundamental to an effective Federal food 
safety system is adequate funding and enough personnel, including 
inspectors, to protect public health. Pork producers support increased 
public funding to improve all food safety operations. In particular, 
they urge Federal agencies to improve compensation for veterinarians. 
In addition, food safety agencies must have policies based on sound 
science.
    For the most part, USDA's Food Safety and Inspection Service does a 
good job. Recently, we were pleased that FSIS advised its veterinarians 
and inspectors on how to handle fatigued pigs, although consistencies 
in applying the guidelines still persist. There is always room for 
improvement. Responses to animal or to human health events must be 
coordinated better, and protocols for reporting and sharing foodborne 
illness information should be consistent. Communication on all levels 
should be improved to quickly address problems. Another area that 
clearly needs improvement is plant closings. Recently, FSIS has shut 
plants because one pig was handled improperly. As a result, hundreds of 
pigs en route to the plant were left on trailers for hours. We need 
guidelines to ensure an appropriate response to animal welfare issues 
in plants.
    The pork industry also supports full funding for both the National 
Antimicrobial Resistance Monitoring System, NARMS, which monitors 
antimicrobial resistance on the farm, in the meat case, and in human 
foodborne illness, and the Collaboration in Animal Health and Food 
Safety Epidemiology, CAHFSE, which monitors bacteria on farms and in 
plants. Pork producers also make the following specific 
recommendations: link food safety objectives to public health outcomes 
rather than arbitrary targets; improve food safety communication among 
state and Federal public health officials and the industry; encourage 
FSIS, veterinarians and inspectors to apply the guidelines for fatigued 
pigs consistently; fully fund programs that monitor antimicrobial 
resistance; require FSIS to follow its procedures for testing pork for 
antibiotic residues; base best handling practices for processing 
facilities on science; establish proportional responses to animal 
welfare issues that might arise at processing facilities; improve the 
ability of FSIS and FDA to maintain the workforce necessary to carry 
out inspections that ensure the safety of food.
    Pork producers have an obligation to produce a safe product, and we 
are committed to continuous improvement to ensure a safe food supply. 
We need the nation's food safety agencies to work in partnership to 
meet that shared obligation. Mr. Chairman, thank you for allowing NPPC 
to present its views on food safety, and I look forward to any 
questions.
    [The prepared statement of Ms. Appell follows:]

   Prepared Statement of Jill Appell, Past President, National Pork 
Producers Council; Pork Producer, Appell's Pork Farms, Inc., Altona, IL
Introduction
    The National Pork Producers Council (NPPC) is an association of 43 
state pork producer organizations and serves as the voice in 
Washington, D.C., of America's 67,000 pork producers.
    The U.S. pork industry represents a significant value-added 
activity in the agriculture economy and the overall U.S. economy. In 
2008, it marketed more than 110 million hogs, and those animals 
provided total gross receipts of $15 billion. Overall, an estimated $21 
billion of personal income and $34.5 billion of gross national product 
are supported by the U.S. hog industry. Iowa State University 
economists Dan Otto and John Lawrence estimate that the U.S. pork 
industry is directly responsible for the creation of nearly 35,000 
full-time equivalent jobs and helps generate an additional 515,000 
indirect, mostly rural, jobs.
    The U.S. pork industry today provides about 20 billion pounds of 
safe, wholesome and nutritious meat protein to consumers worldwide.
    Like many other segments of the U.S. economy, the pork industry has 
suffered through some tough economic times over the past 18 months. 
Last year, U.S. pork producers lost an average of $22 on each hog 
marketed, and it has been estimated that the industry, as a whole, has 
lost between $3 billion and $3.5 billion in equity since September 
2007.
    The industry's one bright spot has been exports, which have helped 
temper U.S. pork producers' losses. In 2008, the United States exported 
2.05 million metric tons, or 4.4 billion pounds, of pork valued at 
nearly $5 billion. Last year was the 17th consecutive year of record 
pork exports.
    America's pork producers have been dedicated to maintaining and 
enhancing the quality and safety of U.S. pork for decades. Pork 
producers are committed to continuous improvement of production 
practices, including animal care and welfare, and in implementing on-
farm practices that safeguard animals and the public health while 
producing wholesome and affordable pork products for consumers around 
the world.
    Last year, the pork industry renewed its commitment to continuous 
improvement by launching the ``We Care'' program, which includes 
Ethical Principles for U.S. Pork Producers. Producing safe food is one 
of the important principles. Pork producers are committed to using 
production practices, managing animal health and managing technology to 
produce safe pork.
Pork Is a Safe Protein
    Producing safe, wholesome pork products is a continuum that begins 
on the farm. Pork producers work in collaboration with their 
veterinarians to design herd health programs, which promote healthy 
hogs and, in turn, produce safe pork. These programs may include 
diagnostics for determining the best time to vaccinate for diseases or 
the best time to use antibiotics for preventing a disease outbreak. The 
health management plans also may include information on ventilation of 
the barns, balanced feed rations and parasite control. The herd health 
management programs have been created and tailored to each production 
system and often to individual farms.
    Keeping pigs healthy is not only the right thing to do, but it is 
also important for producing safe pork. Dr. Scott Hurd of Iowa State 
University demonstrated that when pigs have been sick during their 
life, those pigs will have a greater presence of food pathogens on 
carcasses. This study reinforces the importance of using all of the 
tools available to protect the health of animals.
Overarching Concepts
    Ensuring that our food is safe is the purview of 15 different 
agencies; the principle agencies are the U.S. Department of 
Agriculture's Food Safety Inspection Service (FSIS), which oversees 
meat and poultry processing facilities, and the U.S. Department of 
Health and Human Service's Food and Drug Administration (FDA), which 
regulates food other than meat and poultry but also has jurisdiction 
over animal feed and veterinary products.
    U.S. pork producers believe there are fundamental elements to an 
efficient and effective food safety system. First, the U.S. food safety 
system needs adequate public funding. U.S. pork producers support 
increased Federal appropriations to finance improvements in all food 
safety operations. Food safety functions are a broad benefit to 
society; these functions are not something reserved just for the food 
industry. So, U.S. pork producers oppose the imposition on processing 
facilities of registration fees, user fees or re-inspection fees. (The 
latter could create a powerful incentive for inspectors to seek out 
food safety violations where there may not be any.) The cost of any 
such fees is likely to be passed on to pork producers and consumers at 
a time when they can least afford it.
    U.S. pork producers also believe that our food safety system needs 
adequate numbers of trained personnel, including inspectors, to 
accomplish the goal of protecting public health. FSIS has a staff of 
8,000 employees to oversee 6,300 domestic facilities; FDA has 1,900 
employees to oversee 13,600 domestic facilities. In Fiscal Year 2008, 
FSIS sought to employ 1,134 veterinarians but had only 968 
veterinarians. Of that number, 466 or 48 percent are eligible to retire 
in the next 5 years. This will be a significant hit to FSIS's work 
force. A recent report from the Government Accountability Office found 
that FSIS has a vacancy rate for veterinarians of up to 35 percent.
    The future of an effective American food safety system hinges on 
having adequate personnel in processing facilities. U.S. pork producers 
support the American Veterinary Medical Association's call for Federal 
agencies to improve compensation packages, including better salaries, 
to help recruit and retain veterinarians.
    In addition to adequate funding and personnel, food safety 
regulatory agencies must have policies and procedures based on sound 
science and ones that help industry produce safe products. For the most 
part, the agency charged with the safety of pork and other meat and 
poultry products, FSIS, meets those criteria and does a good job.
What FSIS Does Well
    FSIS is built on an inspection-based model. FSIS veterinarians and 
inspectors are in plants to allow them to operate. FSIS also has 
adequate enforcement authority. Establishments subject to the Federal 
Meat Inspection Act are required to notify USDA of the amount, origin 
and destination of any adulterated or misbranded meat product they 
believe has entered the food supply. That requirement is the regulatory 
equivalent of mandatory recall; FSIS can seize and detain affected 
product if a company refuses to conduct a voluntary recall. To date, no 
company has refused an FSIS recall.
    A critical piece to protecting public health is preventing 
foodborne illness before it happens. The Hazard Analysis Critical 
Control Point or Pathogen Reduction/HACCP system that is used in U.S. 
meat and poultry plants provides a preventive approach to food safety. 
Mandatory HACCP creates the framework for strong food safety controls. 
HACCP assures that processes in pork plants are monitored by industry 
and includes a sound system for verification by inspection. Thousands 
of microbiological tests are run in pork plants annually. Written 
sanitary programs also are in place in every pork plant; FSIS verifies 
these plans before a plant can operate. A recall of meat or poultry is 
viewed as a failure in the system to prevent a potential hazard. 
However, when a product is identified as being a risk and is quickly 
pulled from the market, it could also be viewed as a successful 
culmination of a process that is designed to protect public health.
    While some may view FSIS's treatment of imports as overly critical, 
FSIS truly has a system for handling imports that protects U.S. 
agriculture. The laws and regulations of an importing country must be 
determined by USDA to be equivalent to those of the United States. The 
country's processing facilities are then inspected by FSIS personnel 
before a product can be shipped into the U.S. Inspections are conducted 
of establishments, laboratories and the inspection process itself in 
the importing country. Finally, all product entering the U.S. is 
subject to re-inspection by FSIS upon importation at the border.
    Collaboration with other agencies is another task that FSIS does 
well. When FSIS veterinarians and inspectors find lesions for 
reportable diseases, such as tuberculosis, for example, they submit 
samples and notify USDA's Animal and Plant Health Inspection Service 
(APHIS) veterinarians to conduct tracebacks to farms where animals 
originated. APHIS veterinarians then work with state veterinarians to 
visit farms and conduct the appropriate testing and tracebacks to other 
farms.
    Early last year, there were inconsistencies in how FSIS 
veterinarians and inspectors inspected fatigued pigs at plants. During 
the transport of pigs to harvesting facilities, some pigs become 
fatigued. ``Fatigue'' is a temporary condition in pigs without obvious 
injury, trauma or disease. They fall behind their contemporaries as 
they are being moved and may refuse to take multiple steps. Most 
fatigued pigs recover if rested. FSIS does not record the number of 
fatigued pigs. However, data from FSIS show that 0.8 to 1 percent of 
the roughly 110 million hogs marketed in the U.S. each year become non-
ambulatory from fatigue or injury during transport or shortly after 
unloading. Fatigued pigs also pose no threat to food safety. There is 
no scientific evidence that pigs harbor or can become infected with BSE 
(Bovine Spongiform Encephalopathy). During the outbreak of BSE in 
England in the mid 1990s, pigs were fed BSE-infected bovine brain 
material and showed no evidence of any type of Transmissible Spongiform 
Encephalopathy (TSE) disease over the 2 to 7 year period in the study. 
This evidence from Great Britain and research conducted by USDA's 
Agricultural Research Service (ARS) demonstrated that pigs are 
resistant to BSE following oral exposure with large doses of infected 
material. No case of naturally-acquired TSE has ever been demonstrated 
in pigs.
    FSIS did an extensive look at the science on fatigued pigs and 
issued a question-and-answer guidance to its veterinarians and 
inspectors on how fatigued pigs should be handled and inspected. This 
guidance was made available on February 9, 2009. U.S. pork producers 
encourage FSIS veterinarians and inspectors to apply the guidelines 
consistently across the industry.
Areas for Improvement
    Responding to any animal health or human health event needs to be a 
coordinated effort between Federal and state governments, as well as 
industry. Some states have excellent health departments with good 
protocols in place for collecting and sharing information on foodborne 
illnesses with the Federal Government. But this is not the case for all 
50 states. Because of inconsistencies across states and a lack of 
communication, food recalls, for example, have been slowed. U.S. pork 
producers believe there needs to be consistency across states on the 
protocols for reporting and sharing information with the Federal 
Government on foodborne illnesses. We also believe that communication 
needs to be better among state public health officials, Federal public 
health officials and the industry so that problems can be quickly 
identified and addressed. There also should be a concerted effort by 
USDA and HHS to communicate better with each other. These improvements 
in communication and coordination will help recalls be carried out in a 
timely manner and will provide more safeguards for safe food.
    A specific area that needs to be addressed is how FSIS handles 
plant closings. U.S. pork producers have an obligation to handle pigs 
humanely during the loading and unloading of trucks as they are moved 
to market. Our partners in the plant have the same obligation in the 
holding pens and the stunning area. However, situations have arisen 
recently where one pig in a plant is handled inhumanely, the plant is 
shut down and hundreds of pigs en route to the plant--or at the plant 
but still on trucks--are not allowed to be unloaded. U.S. pork 
producers strongly agree that pigs should be humanely handled at all 
times, but shutting down a plant for an inhumane action against one pig 
can leave hundreds of pigs on trailers for hours, resulting in pig 
deaths. The U.S. meat packing industry uses a ``just-in-time'' delivery 
system, meaning U.S. pork producers' transporters are given a window of 
time to arrive at the plant with their load. If producers do not hear 
from the plant, pigs are loaded to meet the scheduled arrival time at 
the plant. Shutting down a plant for an inhumane handling situation is 
part of an old regulation that does not recognize the changes in the 
U.S. pork industry. This is an operational issue at FSIS that affects 
producers, and it calls for the development of guidelines that ensure 
an appropriate, proportional response to animal welfare issues in 
plants.
    Funding for vital food safety monitoring programs is another area 
that can and should be addressed.
    The National Antimicrobial Resistance Monitoring System (NARMS) was 
established in 1996 as a collaborative effort between the FDA Center 
for Veterinary Medicine (CVM), USDA and the Centers for Disease Control 
and Prevention (CDC). NARMS is funded through FDA appropriations and is 
an important tool used to monitor antimicrobial resistance in selected 
enteric bacteria on the farm, in the meat case and in human foodborne 
illness. The ultimate goal of NARMS is to prolong the lifespan of 
approved antibiotics by promoting responsible use and to identify areas 
for more investigation. The U.S. pork industry has supported NARMS 
since its creation and supports the full funding of NARMS.
    The Collaboration in Animal Health and Food Safety Epidemiology 
(CAHFSE) is another project that the U.S. pork industry has supported. 
It is a joint effort among three agencies of USDA: APHIS, ARS and FSIS. 
The mission is to enhance overall understanding of bacteria that pose a 
food-safety risk by monitoring these bacteria at the farm and plant 
levels over time and correlating any change with on-farm animal health 
or antimicrobial use. The pork industry was the first food animal group 
to cooperate in the development of the CAHFSE program. CAHFSE has not 
received any money for the last 2 fiscal years. It provides important 
surveillance data and is unlike any other surveillance program. The 
U.S. pork industry supports the full funding of the CAHFSE program.
Concerns With Legislative Proposals
    A number of food safety bills propose granting FSIS and FDA 
authority to order food off the market if it poses a serious health 
risk and a company refuses a voluntary recall. U.S. pork producers 
believe that such mandatory recall authority is unnecessary. The 
regulatory agencies have tools for removing products from commerce and 
for taking enforcement action if a company refuses a recall. 
Furthermore, under the 2008 Farm Bill, establishments subject to the 
Federal Meat Inspection Act are required to notify USDA of the amount, 
origin and destination of any adulterated or misbranded meat product 
they believe has entered the food supply. U.S. pork producers oppose 
mandatory recall authority unless it is limited to situations posing 
very serious health risks and gives processors the opportunity to issue 
their own recall first. The voluntary system has worked well in 
removing unsafe products from the market in a timely manner. Mandatory 
recall authority could undermine today's cooperative arrangement 
between government and the food industry.
    Currently, there are performance standards for acceptable levels of 
some pathogens on pork. There is some talk of expanding the standards 
to a host of additional pathogens. These standards must be correlated 
to public health outcomes not based on arbitrary baselines, as was the 
case for Salmonella. The Salmonella performance standards for pork--and 
other meat and poultry commodities--were created in the early 2000s 
with the intention of adjusting them as necessary after processing 
facilities fully implemented HACCP. HACCP decreased Salmonella counts 
on pork by 55 percent between 2000 and 2007. Yet the number of cases of 
salmonellosis in humans rose five percent during that same period.
    U.S. pork producers believe that creating arbitrary performance 
standards is not beneficial to the U.S. pork industry or its consumers. 
Food safety objectives linked to public health outcomes is a better 
approach for safeguarding consumers from foodborne illnesses from meat 
and poultry products. Further, the use of food safety objectives is 
more in line with international objectives as outlined by the Codex 
Alimentarius.
    Expanding on-farm inspections also may be considered during debate 
on various food safety bills. The U.S. pork industry opposes such an 
expansion. U.S. pork producers have worked over the years to develop a 
working relationship with USDA's APHIS veterinarians. APHIS has the 
infrastructure and relationships with producers to address on-farm 
animal health issues. U.S. pork producers do not believe that on-farm 
authority should be extended beyond what currently exists.
U.S. Pork Industry's Commitment To Safe Food
    While the Federal Government plays a vital role in keeping our food 
supply safe, the first line of defense is producers themselves. The 
U.S. pork industry has a long history of not only producing safe food 
but developing and implementing programs and policies that have ensured 
and enhanced the safety of pork.
    The U.S. pork industry in 1989 developed the Pork Quality 
Assurance<SUP>'</SUP> program, a producer education and certification 
program to reduce the risk of violative animal health product residues 
in pork.
    The program, better known as PQA<SUP>'</SUP>, was modeled after 
HACCP programs used by food manufacturers to ensure the safety of food 
products but customized for on-farm use. PQA<SUP>'</SUP> was designed 
to identify the practices with potential to result in a food safety 
hazard and minimize this potential risk through producer education on 
relevant on-farm practices.
    The success of the program was demonstrated by significant producer 
participation, customer acceptance and, more importantly, a measurable 
reduction in the instances of violative residues in pork. The program 
was revised repeatedly--approximately every 5 years--with updated 
content taken from new scientific knowledge, to address the evolving 
industry and changing production practices. In the mid-1990s, for 
example, the program added content to help producers care for their 
animals in a manner that promotes animal well-being.
    In 2007, PQA<SUP>'</SUP> evolved into PQA Plus<SUP>'</SUP> to 
reflect increasing customer and consumer interest in the way food 
animals are raised. PQA Plus<SUP>'</SUP> was built as a continuous 
improvement program. The PQA Plus<SUP>'</SUP> program focuses on food 
safety and animal well-being. The food safety element includes 
practices that minimize physical, chemical or biological hazards that 
might cause injury to consumers. The program also includes an on-farm 
assessment where animal well-being and elements of food safety good 
production practices are assessed. Our producers are told that food 
safety is not optional. Many major pork packers require PQA 
Plus<SUP>'</SUP> certification as a condition of sale.
    The industry will continue to change and modify PQA 
Plus<SUP>'</SUP> as new technologies and science become available. U.S. 
pork producers know their businesses better than anyone and have the 
flexibility to make changes to their practices and programs to improve 
the safety of their product.
    U.S. pork producers do not believe the Federal Government should 
develop industry standards for two reasons:

    1. As it did for the PQA<SUP>'</SUP> and PQA Plus<SUP>'</SUP> 
        programs, the U.S. pork industry brings industry experts around 
        the table to design industry programs. This gives producers 
        ownership of the programs, and that facilitates participation 
        and compliance.

    2. Government-developed production standards would be harder to 
        change and could not respond quickly to new technologies and 
        science.
Industry Efforts Have Worked
    U.S. pork producers' long-standing commitment to producing safe and 
wholesome pork product has paid dividends. For example, FSIS since 1996 
has routinely tested sows, boars and stags, show pigs, roaster pigs and 
market hogs for various antibiotic residues, and since then the total 
number of residue violations has been reduced by nearly 50 percent. For 
each year, the overall violative residue percentage has not risen above 
0.35 percent and was as low as 0.13 percent. The U.S. pork industry 
supports FSIS in following the processes and procedures that it has in 
place for testing and monitoring for antibiotic residues in pork.
    As another example, FSIS established Salmonella performance 
standards for market hog carcasses. When the standards were set, there 
was an 8.7 percent prevalence of Salmonella on carcasses. Following 
several years of testing, that percentage fell to an industry average 
of 2.8 percent in 2007. In 2008, the percentage of pork carcasses with 
Salmonella was 3.4, 2.9, 2.0 and 2.0 percent, respectively, for each 
quarter of the year.
Summary of Recommendations
    With producing safe food as one of its top priorities, the U.S. 
pork industry will continue to adopt and adapt practices and programs 
that improve the safety of our nation's food supply. America's food 
producers need the Federal Government to be a partner in this effort. 
To that end, the U.S. pork industry makes the following recommendations 
for improving the U.S. food safety system:

  <bullet> Establish food safety objectives linked to public health 
        outcomes.

  <bullet> Improve communication about food safety issues among state 
        public health officials, Federal public health officials and 
        the industry.

  <bullet> Encourage FSIS veterinarians and inspectors to apply the 
        guidelines for fatigued pigs consistently across the industry.

  <bullet> Fully fund NARMS and CAHFSE.

  <bullet> Require FSIS to follow its processes and procedures for 
        testing pork for antibiotic residues.

  <bullet> Base best handling practices and inspections for processing 
        facilities on science.

  <bullet> Establish, with input from all stakeholders, proportional 
        responses to animal welfare issues that arise at processing 
        facilities.

  <bullet> Improve the ability of FSIS and FDA to hire and maintain the 
        work force necessary to carry out inspections that ensure the 
        safety of food.
Summary
    The U.S. pork industry has an obligation to produce a safe, 
wholesome product for domestic and international consumers, and that 
obligation is shared by Federal regulatory agencies. The burden of safe 
food cannot be placed solely on the shoulders of industry. U.S. pork 
producers are committed to continuous improvement; they are also 
committed to maintaining the safest food supply in the world.

    The Chairman. Thank you. Dr. Krushinskie.

STATEMENT OF DR. ELIZABETH A. KRUSHINSKIE, DIRECTOR OF QUALITY 
 ASSURANCE AND FOOD SAFETY, MOUNTAIRE FARMS, INC., MILLSBORO, 
           DE; ON BEHALF OF NATIONAL CHICKEN COUNCIL

    Dr. Krushinskie. Thank you, Mr. Chairman, and Members of 
the Committee. My name is Elizabeth Krushinskie. I am the 
Director of Quality Assurance and Food Safety for Mountaire 
Farms, Inc. in Millsboro, Delaware. I have worked on quality 
assurance and food safety issues in various capacities within 
the poultry industry for over 15 years. I am pleased to testify 
today on behalf of the National Chicken Council. NCC is the 
national trade association representing the country's broiler 
producing and processing industry. This afternoon, I would like 
to share with you information about the regulatory framework 
that governs the poultry industry and the success that our 
industry, in partnership with the government, has had in 
ensuring the safety of the food we produce.
    The broiler chicken industry has always taken very 
seriously its obligation to produce safe, wholesome, high 
quality products. One of the basic reasons chicken is the most 
popular meat in America is the trust and confidence consumers 
have in the food safety of our products. The U.S. chicken 
industry's track record is unmatched with more than 37 billion 
pounds of chicken having been processed in 2008, and a per 
capita consumption of 85 pounds per person. The success of our 
brand names depends upon consumer confidence, something we 
strive to earn every day. Our industry is continually investing 
in research and development of the most effective and advanced 
food processing technology and food processing systems, which 
is why U.S. consumers enjoy the safest and most abundant food 
supply in the world.
    In addition, the poultry industry is subject to strict 
regulation by USDA's Food Safety and Inspection Service. All 
plants producing poultry products operate under continuous 
inspection by FSIS. No poultry product may enter interstate 
commerce if it has not been produced under inspection. FSIS may 
suspend operations of a facility or detain product when food 
safety concerns arise. And, imported meat and poultry products 
are not permitted into the U.S. commerce unless produced under 
standards equivalent to those established by FSIS and applied 
to domestically produced products. Companies violating FSIS 
regulations are subject to severe administrative sanctions and 
criminal penalties.
    All poultry plants follow detailed food safety plans that 
are designed by the plants to address potential food safety 
hazards that may occur in the processing of their products. The 
Hazard Analysis and Critical Control Points System was 
developed and voluntarily implemented by the food industry more 
than 4 decades ago. Under HACCP, plants analyze their 
production systems, identify all potential physical, biological 
and chemical hazards that may occur, and adopt controls to 
prevent or reduce those hazards that are reasonably likely to 
occur in processing. In 1996, FSIS made HACCP mandatory, but 
the industry had already relied upon HACCP principles to ensure 
food safety.
    In addition to HACCP, FSIS requires plants to adopt and 
follow sanitation standard operating procedures or SSOPs to 
reduce the likelihood that harmful bacteria will contaminate 
finished product. FSIS also sets pathogen reduction performance 
standards for Salmonella that poultry plants must meet for 
certain raw poultry products, and verifies that plants are 
meeting the standards. In reviews of the effectiveness of HACCP 
and the performance standards, FSIS has reported that the vast 
majority, in fact, nearly all, broiler plants are complying 
with the Salmonella performance standards, and that Salmonella 
prevalence, in most product categories, is lower since HACCP 
implementation than in baseline studies conducted before 
implementation.
    In 2006, the agency began posting industry performance 
categories to highlight how well the industry was doing in 
meeting the Salmonella standards, and these data reveal 
remarkable improvements. Between the first quarter of 2006 and 
the 4th quarter of 2008, the percent of broiler establishments 
operating at the category I performance level, that is, 
achieving Salmonella prevalence levels averaging less than ten 
percent, increased from 35.5 percent of plants to 82 percent. 
The key to success with HACCP has been industry's commitment to 
food safety. FSIS mandates HACCP plans and verifies compliance 
with the plans, but it is the plants that conduct hazard 
analyses and adopt and implement controls to address potential 
food safety hazards.
    The role of government is to ensure that plants have 
effective plans and comply with applicable regulations 
governing their implementation. It is not government's 
responsibility to second guess a plant's hazard analyses or 
controls determined to be appropriate for a specific product or 
establishment. It is critically important that each plant has 
the flexibility to tailor its HACCP system to its unique 
circumstances. This has been paramount to the success of the 
poultry industry in addressing potential food safety hazards. 
To be clear, poultry products are subject to stringent 
regulation, and FSIS has a broad arsenal of enforcement 
authority. Yet, the poultry industry's success in making safe 
and wholesome products has been achieved by the industry 
working in cooperation with FSIS to reduce potential food 
safety hazards and, thereby, ensure consumer safety. I would 
like to thank you for the opportunity to speak today.
    [The prepared statement of Dr. Krushinskie follows:]

Prepared Statement of Dr. Elizabeth A. Krushinskie, Director of Quality 
  Assurance and Food Safety, Mountaire Farms, Inc., Millsboro, DE; on
                   Behalf of National Chicken Council
    Good morning. My name is Elizabeth Krushinskie. I am Director of 
Quality Assurance and Food Safety at Mountaire Farms, Inc. in 
Millsboro, Delaware, and have worked on quality assurance and food 
safety issues in various capacities within the poultry industry for 
over 15 years. I am pleased to testify today on behalf of the National 
Chicken Council. NCC is the national trade association representing the 
country's broiler producing and processing industry. This morning, I 
would like to share with you information about the regulatory framework 
that governs the poultry industry and the success that our industry, in 
partnership with the government, has had in ensuring the safety of the 
food we produce.
    The broiler chicken industry has always taken very seriously its 
obligation to produce safe, wholesome, high quality products. One of 
the basic reasons chicken is the most popular meat in America is the 
trust and confidence consumers have in the food safety of our products. 
The U.S. chicken industry's track record is unmatched with more than 37 
billion pounds of chicken having been processed in 2008 and a per 
capita consumption of 85 pounds. The success of our brand names depends 
upon consumer confidence, something we strive to earn every day. Our 
industry is continually investing in research and development of the 
most effective and advanced food processing technology and food safety 
systems, which is why U.S. consumers enjoy the safest and most abundant 
food supply in the world.
    In addition, the poultry industry is subject to strict regulation 
by USDA's Food Safety and Inspection Service (FSIS). All plants 
producing poultry products operate under continuous inspection by FSIS. 
No poultry product may enter interstate commerce if it has not been 
produced under inspection. FSIS may suspend operations of a facility or 
detain product when food safety concerns arise. And, imported meat and 
poultry products are not permitted entry into U.S. commerce unless 
produced under standards equivalent to those established by FSIS and 
applied to domestically produced products. Companies violating FSIS 
regulations are subject to severe administrative sanctions and criminal 
penalties.
    All poultry plants follow detailed food safety plans that are 
designed by the plants to address potential food safety hazards that 
may occur in the processing of their products. The Hazard Analysis and 
Critical Control Points (HACCP) system was developed and voluntarily 
implemented by the food industry more than 4 decades ago. Under HACCP, 
plants analyze their production systems, identify all potential 
physical, biological and chemical hazards that may occur, and adopt 
controls to prevent or reduce those hazards that are reasonably likely 
to occur in processing. In 1996, FSIS made HACCP mandatory, but the 
industry had already relied upon HACCP principles to ensure food 
safety.
    In addition to HACCP, FSIS requires plants to adopt and follow 
written Sanitation Standard Operating Procedures (SSOPs) to reduce the 
likelihood that harmful bacteria will contaminate finished product. 
FSIS also sets pathogen reduction performance standards for Salmonella 
that poultry plants must meet for certain raw poultry products, and 
verifies that plants are meeting the standards.
    In reviews of the effectiveness of HACCP and the performance 
standards, FSIS has reported that the vast majority of plants are 
complying with the Salmonella performance standards and that Salmonella 
prevalence, in most product categories, is lower since HACCP 
implementation than in baseline studies conducted before 
implementation. In 2006, the agency began posting industry performance 
categories to highlight how well the industry was doing in meeting the 
Salmonella standards, and these data reveal remarkable improvements. 
Between the first quarter of 2006 and the fourth quarter of 2008, the 
percent of broiler establishments operating at the category I 
performance level--achieving Salmonella prevalence levels averaging 
less than 10%--increased from 35.5% to 82%.
    The key to success with HACCP has been industry's commitment to 
food safety. FSIS mandates HACCP plans and verifies compliance with the 
plans, but it is the plants that conduct hazard analyses and adopt and 
implement controls to address potential food safety hazards. The role 
of government is to ensure that plants have effective plans and comply 
with applicable regulations governing their implementation; it is not 
government's responsibility to second guess a plant's hazard analyses 
or controls determined to be appropriate for a specific product or 
establishment. It is critically important that each plant has the 
flexibility to tailor its HACCP system to its unique circumstances. 
This has been paramount to the success of the poultry industry in 
addressing potential food safety hazards.
    To be clear, poultry products are subject to stringent regulation, 
and FSIS has a broad arsenal of enforcement authority. Yet, the poultry 
industry's success in making safe and wholesome products has been 
achieved by the industry working in cooperation with FSIS to reduce 
potential food safety hazards and, thereby, ensure consumer safety.
    I am aware that the Congress is currently considering several bills 
to modernize the nation's food safety laws. To the best of my 
knowledge, none of these bills would expand FSIS regulatory authority. 
Since FSIS regulation is already pervasive, the agency does not need 
more power. And I am not here to discuss what authority might be 
appropriate for the Food and Drug Administration in its regulation of 
other foods.
    I do want to stress, however, that adequate funding for FDA is an 
essential first step toward food safety modernization. FDA has operated 
with less than adequate funding for too many years. Giving FDA more 
regulatory power would be useless without first adequately funding the 
agency.
    And, although adequate funding is crucial to the effectiveness of 
any regulatory agency, user fees are not the answer. Congress should 
continue to fund regulatory agencies through appropriations. User fees 
have been proposed for FDA activities such as sampling of imported 
foods, recall effectiveness checks, and investigations of potential 
sources of contamination. Over the years, there have been various 
proposals to fund FSIS inspection through similar user fees imposed on 
the meat and poultry industries. Each time such a proposal has been 
considered, it has been rejected because these activities are central 
to the government's role in enforcing the law; they are government 
activities, not voluntary services for which companies receive 
commercial benefits.
    In short, the chicken industry has done a very good job at 
producing safe, wholesome, high quality foods. The industry is 
continually developing new interventions and related technologies, and 
refining its food safety systems, to enhance food safety. Although FSIS 
regulation is strict, it has been industry's commitment to cooperating 
with the government by complying with those regulations but 
independently seeking new and more effective ways to produce products 
that consumers can enjoy and trust.
    Thank you for this opportunity to testify this morning. I would be 
pleased to respond to questions or supplement my statement as may be 
useful to the Committee.

    The Chairman. Thank you very much. Dr. Rybolt.

        STATEMENT OF MICHAEL L. RYBOLT, Ph.D., DIRECTOR,
SCIENTIFIC AND REGULATORY AFFAIRS, NATIONAL TURKEY FEDERATION, 
                        WASHINGTON, D.C.

    Dr. Rybolt. Good afternoon, Chairman Scott, Ranking Member 
Neugebauer, and Members of the Subcommittee, my name is Michael 
Rybolt, and I am the Director for Scientific and Regulatory 
Affairs for the National Turkey Federation. NTF, which 
represents more than 99 percent of the U.S. turkey industry, 
greatly appreciates the opportunity to be here today. Food 
safety is the turkey industry's priority, and our members 
agreed years ago that food safety is an issue on which they 
would cooperate, not compete. Federal inspection of meat and 
poultry products has undergone a revolution of sorts in the 
last 13 years, and the collaborative efforts of industry and 
USDA have resulted in some notable accomplishments.
    The turning point was the HACCP rule in 1996. As previously 
discussed, HACCP created a system by which companies designed 
food safety plans aimed at identifying the points in production 
where food safety hazards are likely to occur, and then 
devising processes to control those hazards. Further, the 
establishments were required to have programs for ensuring they 
maintain the highest level of sanitary conditions in their 
facilities, also known as SSOPs. The current statute also 
requires that FSIS provide continuous bird-by-bird inspection 
in order for the mark to be applied to poultry products before 
being distributed in commerce. This requires FSIS inspectors to 
visually inspect each and every turkey carcass to determine if 
the carcasses are fit for human consumption.
    In addition, FSIS also ensures facilities are operating in 
a sanitary environment by verifying that their SSOPs are 
effective. The regulation also requires that the establishment 
develop, implement and maintain written food safety program I 
mentioned a moment ago. Under HACCP, an establishment monitors 
its processes and determines if critical limits are met and, if 
not, the establishment enacts certain corrective action. These 
actions help ensure the product safety and prevents an unsafe 
product from entering commerce. The establishment maintains 
records of its actions and makes all those available to FSIS 
inspectors. This includes establishment of microbial testing. 
As part of the HACCP rule, FSIS also promulgated pathogen 
performance standards for each product class and conducts its 
own microbial testing to ensure the establishment is meeting 
these standards.
    The results of the standards speak for themselves, as 
previously outlined, but virtually all product classes subject 
to FSIS Salmonella verification testing are at or below half of 
their respective performance standards. If an establishment 
fails to demonstrate that it has produced safe and wholesome 
products for human consumption, FSIS has the authority to 
suspend inspection, which virtually shuts the plant down. No 
meat or poultry plant can ship product that has not been 
afforded the opportunity of inspection, therefore, a suspension 
of inspection is a severe enforcement tool that FSIS has.
    In the unfortunate event that unsafe product has been 
shipped into commerce, establishments have historically worked 
with FSIS and voluntarily issued a product recall. Congress, in 
the 2008 Farm Bill, made a significant adjustment to this 
process, however. Upon completion of the new regulations, which 
FSIS is working on, any establishment that has reason to 
believe adulterated product or misbranded products has been 
shipped into commerce will be required to notify USDA regarding 
the affected products. Should an establishment fail to issue a 
voluntary recall, FSIS does have the legal authority to seize 
and detain the affected products. However, I am not aware of 
any situation where a meat and poultry plant has failed to do 
so.
    Meat and poultry inspection is truly collaborative and FSIS 
is in the plant continuously. In this relationship the existing 
enforcement tools of suspension, product seizure, and in severe 
situations criminal penalties, are meaningful and appropriate. 
Changes to the inspection statute is something that does not 
happen often, and should the political will arise to make such 
a change, Congress should focus its energy on writing 
legislation to ensure the problem never arises. HACCP is 
arguably one of the most advanced, science-based food 
inspection programs in the world and has helped ensure the 
safety of meat and poultry products produced. However, it is 
not perfect, and it didn't get developed overnight.
    I bring this up only to caution that any such changes to 
the existing laws or regulations should be done carefully and 
all due diligence should be exercised. Any changes to the 
existing statute should be done with a scalpel rather than an 
axe to ensure that the current level of inspection is not 
compromised. As science and technology improves, it is highly 
plausible that the food safety inspection process would and 
should improve as well. Congress should not be so prescriptive 
that they stifle innovation and prevent modifications to the 
inspection process that are deemed appropriate. For example, 
some have called for the law to mandate HACCP plans, but what 
if 15 years from now a new food safety program more advanced 
than HACCP emerges? The Secretary would then be limited to 
either ignoring those advancements or requiring a new system to 
be used in addition to HACCP. However, this does not mean that 
Congress should not consider changes.
    Currently, FSIS has embarked on further refining its 
inspection process using science, risk, and other appropriate 
data. The agency has been working to utilize risk in 
determining how to dedicate its inspection resources. In 
today's economic environment, it is only prudent that the 
government and industry focus its resources towards processes 
and products that are deemed to be more risky. FSIS' efforts to 
date offer instructive lessons for anyone interested in food 
safety. All food safety systems should be designed to manage 
and reduce risk to the food supply. Congress may want to 
consider giving FSIS expanded authority to allocate inspection 
resources according to risk, so that the inspectors are focused 
most closely to those tasks which will have the biggest impact 
on food safety. For example, establishment employees could be 
allowed to share bird-by-bird inspection duties, working under 
and with the close supervision of FSIS staff. Such a system 
would permit inspection resources to be shifted to inspection 
processes that have a measurable public health outcome.
    There have been numerous comments regarding the current 
performance standards and the effect they have on public 
health. The performance standards have had a notable effect on 
the incidence of pathogens on the products and arguably 
affected public health. Today, the meat and poultry industry as 
a whole has less than half the Salmonella incidence allowed 
under the standard, so one would expect a marked decrease in 
foodborne illnesses. However, the recent CDC report indicates 
that we are at a plateau in foodborne illness. Whether this is 
attributable to issues outside of FSIS is unclear, but it does 
underscore the need for the next generation of performance 
standards to be developed with appropriate attribution data so 
that the standards have a measurable public health outcome. 
Thank you, Mr. Chairman. I will answer any questions.
    [The prepared statement of Dr. Rybolt follows:]

 Prepared Statement of Michael L. Rybolt, Ph.D., Director, Scientific 
  and Regulatory Affairs, National Turkey Federation, Washington, D.C.
    Good afternoon Chairman Scott, Ranking Member Neugebauer, and 
Members of the Subcommittee. My name is Dr. Michael Rybolt and I am the 
Director for Scientific and Regulatory Affairs for the National Turkey 
Federation, and I staff the Federation's Technical & Regulatory 
Committee, which oversees all food safety activities for the 
Federation. NTF, which represents more than 99 percent of the U.S. 
turkey industry, greatly appreciates the opportunity to provide 
comments today.
    The men and women of the U.S. turkey industry raise more than 260 
million turkeys, with an average live weight of 28 pounds per bird. 
After processing, this yields nearly 6 billion pounds of safe, 
wholesome and nutritious turkey products for American consumers. Food 
safety is the industry's top priority and our members agreed, years 
ago, that food safety is an issue on which they would cooperate, not 
compete. Virtually all turkey products purchased in supermarkets are 
branded--when you put your name on the package, you put your reputation 
on the line. Our members' future success is directly linked to customer 
confidence in turkey products.
    Federal inspection of turkey and other meat and poultry products 
has undergone a revolution of sorts in the last 13 years, and the 
collaborative efforts of industry and USDA have resulted in some 
notable accomplishments. Both the government and industry have shown 
they are capable of implementing new food safety programs and a modern, 
science-based inspection system within the framework of inspection 
statutes that date back to 1906. Work remains to be done on all sides, 
as we will discuss momentarily, and there could be a role for Congress 
to play in this process. But, the mind set that has been established in 
both the regulators and the regulated has created a foundation for the 
continuing modernization of the meat and poultry inspection.
    The turning point was the Pathogen Reduction/Hazard Analysis 
Critical Control Point (HACCP) regulation USDA promulgated in 1996 and 
began implementing in meat and poultry plants in 1998. The HACCP rule 
recognized that naturally occurring pathogens in raw meat and poultry 
products had surpassed animal diseases--the focus of the existing 
statutes--as the primary public health challenge. It created a system 
by which companies designed food safety plans aimed at identifying the 
points in production where food safety hazards are likely to occur and 
then devising processes to control those hazards. Further, the 
establishments were required to have programs for ensuring they 
maintain the highest sanitary conditions in their facility, Sanitation 
Standard Operating Procedures (SSOPs).
    HACCP and SSOPs have yielded significant results, as demonstrated 
by FSIS' pathogen testing data but it is important to understand 
exactly what inspection looks like today under the HACCP system.
    Today, turkey and all other meat and poultry products are produced 
under the daily inspection of USDA's Food Safety and Inspection Service 
(FSIS). Current statue requires that FSIS provide continuous bird-by-
bird (or carcass by carcass) inspection in order for the mark of 
inspection to be applied and product distributed in commerce. This 
daily bird-by-bird inspection requires that FSIS inspectors visually 
inspect each and every turkey carcass that is processed and to 
determine if the carcasses are wholesome and fit for human consumption. 
This concept dates back to the 1906 laws.
    In addition to the carcass inspection, FSIS also ensures that the 
establishment is operating in a sanitary environment, by verifying the 
SSOPs are effective. Further, the regulations governing the processing 
of turkey carcasses require that establishments develop, implement and 
maintain the written food safety program I mentioned a moment ago. 
These last two aspects of inspection are directly attributable to the 
1996 HACCP rule.
    Operating under HACCP, an establishment is responsible for its 
processes and for ensuring the safety of the products it produces. 
HACCP and SSOPs have moved the inspection process from the command-and-
control system of the past, to a more preventative system for which the 
establishment is in control, while FSIS ensures compliance with the 
regulations and the establishment's own food safety program.
    Under HACCP, an establishment monitors its processes and determines 
if critical limits are met and if not, the establishment enacts certain 
corrective actions. The corrective actions help ensure the products 
safety and prevent unsafe product from entering commerce. The 
establishment maintains records of its actions and makes all the 
records available to the FSIS inspectors, which includes establishment 
microbiological testing.
    In the current inspection environment, FSIS doesn't rely solely on 
visual carcass inspection, plant records or even testing to ensure safe 
product is being produced. As part of the HACCP final rule, FSIS 
promulgated pathogen performance standards for each product class and 
conducts product sampling and microbiological testing to ensure that 
the establishment is meeting these standards. The results of the 
performance standards speak for themselves. Since 1996, the incidence 
of Salmonella on meat and poultry products has dropped significantly. 
Virtually all product classes subjected to the FSIS Salmonella 
verification testing are at or below half of their respective 
performance standards. The turkey industry's own data, which is blinded 
and complied by NTF, demonstrates that the current incidence of 
Salmonella on whole turkey carcasses is about six percent, less than 
half the standard.
Enforcement
    Under existing law and regulation, if an establishment fails to 
demonstrate that is has produced safe and wholesome products for human 
consumption, FSIS has the authority to suspend inspection, which 
virtually shuts the plant down. No meat or poultry plant can ship 
product that has not been afforded the opportunity of inspection, 
therefore a suspension of inspection is a severe enforcement tool that 
FSIS has at its disposal.
    In the unfortunate event that unsafe or unwholesome product has 
been shipped into commerce, a establishments historically have worked 
with FSIS and voluntarily issued a product recall. Congress, in the 
2008 Farm Bill, made a significant adjustment to this process. Upon 
completion of implementing regulations, any establishment that has 
reason to believe adulterated or misbranded products have been shipped 
into commerce will be required to notify USDA regarding the type, 
amount, origin and destination of the product. Should an establishment 
fail to issue a voluntary recall, FSIS does have the legal authority to 
seize and detain the affected product. It also has the authority, which 
it has exercised in the past, to issue a public health alert. I am not 
aware of any situation where a meat or poultry plant has failed to 
issue a recall. In an era where most meat and poultry products are 
branded, and corporate identities and reputations are tied to the 
quality of those products, the recall and news release remains, 
perhaps, the most powerful enforcement tool of all.
    If Congress considers modernizing the inspection statutes, it must 
resist the temptation to add new enforcement authorities simply for the 
sake of appearing to ``be tough.'' Meat and poultry inspection is truly 
collaborative, and FSIS is in the plant continuously. In this 
relationship, the existing enforcement tools of inspection suspension, 
product seizure and, in severe instances, criminal penalties are 
meaningful and appropriate.
    And, has been proven now by Administrations of both parties, news 
releases, public posting of pathogen testing results and other 
incentives have led to a dramatic enhancement of the food safety 
system.
    Changing the inspection statutes is something that does not happen 
often, and should the political will arise to make such changes, does 
Congress want to focus its energy on writing legislation to punish 
companies after a food safety problem has occurred, or would it be 
better to craft legislation that helps ensure a problem never arises in 
the first place?
Modernization
    HACCP is arguably one of the most advanced, science-based food 
inspection programs in the world and has helped enhance the safety of 
the meat and poultry products produced in the United States. However, 
it is not perfect and did not get developed or implemented overnight. 
During the implementation period, FSIS hosted numerous public meetings 
across the country and provided countless supporting documents to help 
the regulated entities come into compliance with the new requirements. 
The process was phased-in based on plant size. Today, all federally 
inspected meat and poultry establishments now have a HACCP plan in 
place.
    I bring this up to only caution that any such changes to the 
existing laws and regulations should be done carefully and all due 
diligence should be exercised. Any changes to the existing statue 
should be done with a scalpel, not an axe, to ensure that the current 
level of inspection is not compromised.
    When the existing laws were passed, no one knew of HACCP. As 
science and technology improves, it is highly plausible that the food 
safety inspection process would and should be improved as well. Changes 
should not be so prescriptive that they stifle innovation and prevent 
the Secretary of Agriculture from making modifications to the 
inspection process that are deemed appropriate. For example, some have 
called for the law to be amended so that HACCP plans are required by 
statute. But, what if 15 years from now, a food safety program more 
advanced than HACCP emerges? The Secretary by statute would be limited 
to either ignoring the advance or requiring the new system be used in 
addition to HACCP, creating a needless strain on FSIS and company 
resources. Congress should be careful not to replace a 103 year old Act 
with one that becomes obsolete in 15 or 20 years.
    However, that does not mean that Congress should not consider 
changes.
    Currently, FSIS has embarked on further refining its inspection 
process using science, risk and other appropriate data. The agency has 
been working to utilize risk in determining how to best utilize its 
inspection resources. In today's economic environment, it is only 
prudent that the government and industry focus more of its limited 
resources toward processes and products that are deemed to be more 
risky, from a public health outcome. This clearly is the way of the 
future--FSIS' efforts to date offers instructive lessons for anyone 
interested in food safety. All food safety systems should be designed 
to manage and reduce risk to the food supply. Congress may want to 
consider giving FSIS expanded authority to allocate inspection 
resources according to risk so that inspectors are focused most closely 
on those tasks which will have the biggest impact on food safety. For 
example, establishment employees could be allowed to share bird-by-bird 
inspection duties, working with and under the close supervision of FSIS 
staff. Such a system would permit inspection resources to be shifted to 
inspection processes that have a measurable public health outcome.
    There have been numerous comments regarding the current performance 
standards and the affect these have had on public health. Please bear 
in mind that the existing standards were not created because they led 
to a specific, identifiable public health outcome. They were created as 
a baseline measure of the existing industry performance, in 1996, at 
controlling the incidence of naturally occurring pathogens on raw meat 
and poultry products. The performance standards have had a demonstrable 
affect on the incidence of pathogens on the products and arguably 
affected public health in the early years of their existence. Today, 
the meat and poultry industry as a whole has less than half the 
pathogen incidence allowable under the standards, so one would expect a 
marked decrease in foodborne illnesses. However, the recent CDC report 
indicates that we are at a ``plateau'' in foodborne illnesses. Whether 
this is attributable to issues outside FSIS' and the meat and poultry 
industry's control is unclear, but it does underscore the need for the 
next generation of performance standards to be developed with 
appropriate attribution data so that the standards have a measurable 
public health outcome.
    In closing, it should be reiterated that the U.S. meat and poultry 
supply is one of the safest in the world. However, the turkey industry 
recognizes changes could and should be made to further protect the 
consuming public. As the food safety reform debate moves to the 
forefront of the Congressional agenda, any changes that are enacted 
should ensure demonstrable improvements in food safety and that a 
measurable public health outcome is achieved.
    Mr. Chairman and other Members of the Subcommittee, again, let me 
thank you for allowing the National Turkey Federation the opportunity 
to provide this testimony today. The number one goal of the U.S. turkey 
industry is to provide safe, wholesome, nutritious quality products at 
an affordable cost to the consumer. All of the food safety activities 
discussed previously have allowed the turkey industry to meet its goal. 
Thank you very much and I will be happy to answer any questions.

    The Chairman. Thank you very much. Mr. Gibber.

    STATEMENT OF ELLIOT P. GIBBER, PRESIDENT, DEB-EL FOODS; 
CHAIRMAN, FURTHER PROCESSORS DIVISION, UNITED EGG ASSOCIATION, 
                         ELIZABETH, NJ

    Mr. Gibber. Thank you, Mr. Chairman, and Members of the 
Committee. My name is Elliot Gibber, and I am President of Deb-
El Food Products in Elizabeth, New Jersey. I also serve as 
Chairman of the United Egg Association's Further Processors 
Division. Our members produce liquid, frozen, and dried egg 
products used in the food manufacturing, food service, and 
retail sector. Of all the eggs produced in the United States, 
about \2/3\ are sold as shell eggs to grocery stores, 
restaurants, and institutions. The other \1/3\ of the egg 
supply is used by our egg products industry. As further 
processors, we are regulated by the Food Safety and Inspection 
Service like the meat and poultry industry. Shell egg producers 
are regulated by the Food and Drug Administration and USDA's 
Agricultural Marketing Service.
    We are proud of producing safe, wholesome, and nutritious 
products. FSIS maintains a continuous presence in our plants 
where eggs are broken for processing. FSIS regulations mandate 
that all egg products be pasteurized to ensure that pathogens 
such as Salmonella are eliminated. As a result of these 
stringent requirements since mandatory inspection began in 1970 
there has never been an outbreak of foodborne illness 
associated with pasteurized egg products. That is not to say 
there is never Salmonella present in a pasteurized product. Our 
own laboratories and USDA do occasionally find it, but 
intensive sampling and test and hold policies allow us to keep 
suspect products from entering commerce or immediately stop the 
distribution.
    We have a good relationship with FSIS and would like to 
commend the agency for its professionalism and responsibility. 
I do believe there are few ways that FSIS could do its job even 
better, and would like to mention some of them. First, FSIS 
should issue a HACCP regulation for the egg products industry. 
FSIS has sole responsibility for our industry since 1995, and 
has long since implemented HACCP regulations for meat and 
poultry, but not for egg products. We understand the proposed 
rule is virtually complete. We hope the Committee will urge 
FSIS to move ahead. A HACCP regulation will permit more 
flexibility while giving our industry additional responsibility 
to ensure safe product.
    Second, FSIS needs to apply inspection requirements in a 
rational manner. In response to meat and poultry issues that 
were raised last year by another Congressional Committee, FSIS 
has recently decided to increase inspection of egg product 
plants that are already being inspected 8 to 16 hours a day. 
The additional inspection will be costly to us and to 
taxpayers. If it would result in food safety benefit the added 
cost would be worth it, but, in fact, the additional inspection 
is not for potential hazardous operations like breaking eggs. 
Inspectors have always been present when that occurs and always 
should be. Now FSIS has plans to have an inspector literally 
sit and watch a few containers per hour being filled with dry 
egg whites even though the product was inspected previously, 
and cannot be shipped to a customer until it is inspected 
again.
    One of our customers told us they may incur 100 hours or 
more of overtime each week so an inspector can continuously 
observe the sealed room where dry egg products is heat treated 
for at least 7 days. I hope this inspector brings plenty of 
reading material. Clearly, this is an over reaction and is not 
the best deployment of our resources. An inspector who sits and 
watches a sealed room for 7 days is not available for other 
infinitely more important food safety work. We hope you will 
encourage FSIS to rethink these policies. A third area of 
improvement for FSIS lies in the way it makes policy. We have 
seen official directives which do not go through public comment 
procedures. Whether the policies are significant or not, they 
should have been issued as proposed regulations.
    Even when the use of a less formal directive is justified, 
we have seen the failure to consult with industry in advance 
that has sometimes led to ill-considered policies. A little 
advanced consultation with us, and, yes, with the consumers and 
the public too, would pay dividends and make better policies. 
Let me conclude with two broad policy areas where we believe 
FSIS' current systems is appropriate and should be maintained. 
First, we support the laws and regulations that require that 
egg products only be imported from countries with food safety 
systems equivalent to ours. Second, we believe that FSIS is 
appropriately housed in the Department of Agriculture. We do 
not support moving FSIS to a different cabinet Department.
    The expertise, institutional memory, and experience within 
USDA, and within this Committee, should not be lightly 
discarded. Our group has not taken a formal position for or 
against a single food safety agency, but we do not want to see 
any change that would deprive this Committee of its 
jurisdiction, or disrupt the food safety functions that FSIS 
generally carries out very well. Thank you for the opportunity 
to testify. I will be glad to answer your questions at the 
appropriate time.
    [The prepared statement of Mr. Gibber follows:]

   Prepared Statement of Elliot P. Gibber, President, Deb-El Foods; 
    Chairman, Further Processors Division, United Egg Association, 
                             Elizabeth, NJ
    Good morning Mr. Chairman, Mr. Neugebauer and Members of the 
Subcommittee. My name is Elliot Gibber and I am the President of Deb-El 
Foods, in Elizabeth, New Jersey. We are a mid-sized egg products 
operation and employ 160 people in New Jersey and New York.
    I appreciate the opportunity to testify on behalf of United Egg 
Association (UEA)--Further Processors Division. UEA members produce 
about 80% of all the liquid, frozen and dried egg products in the 
United States. UEA is a trade association whose activities include 
efforts to assure the continued safety of the foods we produce for U.S. 
and foreign consumers.
Food Safety in the Egg Products Industry
    I thank the Subcommittee for holding a hearing on the safety of egg 
products, red meat and poultry produced in the United States. The 
several reported incidents of contamination in both domestic and 
imported foods over the last few years have legitimately raised 
concerns in the Congress and with consumers and the food industry 
itself.
    I would like to begin with two significant points about regulation 
of the egg industry in this country. First, unlike most other food 
produced here, the Food and Drug Administration (FDA) and the United 
States Department of Agriculture (USDA) share responsibility for the 
safety of shell eggs. On the other hand, USDA alone regulates the 
processing of liquid, frozen and dried egg products through the Food 
Safety and Inspection Service (FSIS). Second, unlike many other 
agricultural commodities, USDA regulations mandate pasteurization of 
all processed egg products in compliance with prescribed protocols to 
assure the destruction of pathogens.
    The egg products industry uses almost \1/3\ of the shell eggs 
produced by U.S. egg farms. We produce the various egg products that 
are used in food service, institutions and food manufacturing. Our 
presence in the retail sector is growing. Our industry, working with 
government, has made gigantic strides in improving the safety of our 
products. These improvements began some 4 decades ago.
    Until the last quarter of the 20th century, our businesses 
primarily processed surplus table egg production and those qualities of 
eggs that were unsuitable for table use. Then, the demand for egg 
products began growing at a pace faster than traditional shell egg 
production. At the same time, we recognized the demand from our 
customers for consistent high-quality products and greater consumer 
expectations of safe foods. Today, the majority of eggs used in our 
industry come from egg-laying flocks dedicated to egg products 
production. In fact, over half of the eggs used in egg products move 
directly from the hen house to the processing plant where they are 
broken and processed the same day they are laid.
    Our industry was concerned with food safety long before it became 
the issue it is today. In the 1940s the USDA and industry worked 
together to create a voluntary egg products inspection program. It was 
under that program that industry and the Agricultural Research Service 
developed reliable methods for pasteurization of egg products and in 
1965, USDA began requiring pasteurization as part of their voluntary 
inspection program.
Mandatory Egg Products Inspection
    By 1970, about 75% of the egg products produced in the United 
States were under continuous USDA inspection. That same year, Congress 
enacted the Egg Products Inspection Act, which required continuous 
inspection of all egg products manufacturing. The majority of our 
industry strongly supported that legislation and worked with Congress 
to develop the necessary legislative language. Among other things, the 
Act has resulted in legal requirements that all egg products processed 
in the United States undergo pasteurization.
Our Food Safety Record
    Before implementation of mandatory inspection in 1971, foodborne 
illnesses were sometimes associated with consumption of liquid, frozen 
and dried egg products. Salmonella was and remains the pathogen of 
primary concern in our industry. Since 1971, we are not aware of a 
single outbreak of salmonellosis in humans attributed to pasteurized 
egg products. That is a claim that few industries can make.
    That is not to say that Salmonella is never present in a 
pasteurized egg product. Our laboratories and USDA laboratories 
infrequently find Salmonella in a sample of tested product. However, 
intensive sampling coupled with company test-and-hold policies for many 
of our products prevent suspect products from entering marketing 
channels and/or result in immediate action to stop their distribution.
Imports
    As is the case for red meat and poultry, only egg products produced 
in a foreign country maintaining an inspection system equivalent to 
ours may be imported into this country. I believe that it is indicative 
of the strength of our system that only one country--Canada--currently 
meets this high standard. Over the years, some countries have tried, 
without success, to achieve equivalency. Many others have dropped the 
idea after learning what they must do to meet our high safety standard.
    Much to the chagrin of our industry, in at least one instance, USDA 
took the position that an interested foreign country did not need to 
bring all of its facilities up to our standard. That is, the country 
was told it could export products to the U.S. if it could get even one 
plant approved. After years of trying, the potential exporting country 
has yet to receive USDA approval of a single plant.
    We do have concerns over imported food and feed ingredients that we 
need. Certain feed ingredients are only available from countries such 
as China. Some of the minor ingredients used in our egg products are 
only commercially available from other countries. Our industry is not 
comprised of multi-national corporations that can afford a presence in 
these supplying countries. Like just about all other consumers in the 
United States, we depend on the Federal Government to help assure the 
safety of imported consumer goods. While this Subcommittee's 
jurisdiction may be limited in this area, I urge the Congress to take 
swift and effective action to improve our import inspection programs 
and give greater scrutiny to imported food.
Single Food Safety Agency
    United Egg Association has not taken a position on a single food 
safety agency as some members of the Administration and Congress have 
suggested. We do, however, have several concerns over the practicality 
of these proposals. The obvious example of the Department of Homeland 
Security does provide a lesson in how things can go wrong when 
reorganizing government. As you are aware, that reorganization resulted 
in a loss of institutional knowledge previously available to 
agriculture and a lessened priority for agriculture issues.
    In 1995, a Congressionally mandated reorganization of food safety 
activities at USDA resulted in the Department moving the egg products 
inspection program from the Agricultural Marketing Service to the Food 
Safety and Inspection Service. This move placed all major food safety 
functions at USDA into one agency. Yet, this relatively non-complicated 
move with one Department of the Federal Government created challenges 
that still exist, at least in part, today. Certain efficiencies were 
lost, institutional knowledge was lost forever, chains of command were 
confused, and mid-level employees became unsure of their 
responsibilities. In this instance, the bureaucracy of a vastly larger 
program swallowed a relatively small program.
    We cannot support any restructuring of food safety responsibilities 
that would reduce the jurisdiction of this Committee. Mr. Chairman, 
your Committee represents the critical experience, understanding and 
institutional knowledge of agriculture, and, more specifically, food 
safety programs for egg products, red meat and poultry. My intent here 
is not to flatter the Subcommittee Members. Our experience dictates 
that we speak up on this issue now or suffer the consequences later.
HACCP
    I would like to ask the Subcommittee to encourage USDA to proceed 
with plans to implement a mandatory Hazard Analysis and Critical 
Control Point (HACCP) program for egg products. The Department 
implemented these programs for red meat and poultry more than a decade 
ago. The previously referenced move of the egg products inspection 
program and subsequent higher priorities for FSIS have delayed 
publication of a proposed egg products HACCP rule. But after nearly 15 
years, it does not seem unreasonable to ask that FSIS publish a 
proposed rule for public comment.
    As opposed to the current, outdated ``command-and-control'' 
regulatory structure, our membership has long recognized the need for 
HACCP programs to better assure the safety of our products. 
Accordingly, our members have implemented these programs based on the 
best information, training and professional support available, but 
without regulatory guidance from USDA.
    These HACCP programs meet our customers' expectations and we 
believe that they will meet any standard set by USDA. However, the lack 
of a HACCP-based inspection program has resulted in an unnecessarily 
complicated regulatory burden on our companies. To a lesser but 
important extent, we are concerned that our trading partners can use 
lack of a national HACCP program for egg products as one more non-
tariff trade barrier.
    We also recognize that compliance with an eventual USDA program 
will inevitably require some changes in our existing voluntary 
programs. The longer mandatory HACCP is delayed the greater likelihood 
of changes being required along with the associated costs of such 
changes.
    HACCP is recognized as the ``gold standard'' for food safety. We 
believe it will result in an even safer food supply and ask the 
Committee's help in encouraging FSIS to move quickly on a HACCP 
regulation.
Engage With FSIS
    FSIS uses a system of official directives to communicate new or 
revised policy to the regulated industry and the agency's inspection 
staff. Over the last few years, this system has too frequently worked 
as rule-making without an opportunity for comment. These directives can 
carry changes in policy to improve or better assure the safety of 
products regulated by FSIS. Unfortunately, such policy making sometimes 
occurs in a vacuum without an opportunity for input from the industry.
    The agency has invited us to comment on directives after they are 
finalized, but as a matter of departmental policy does not seek comment 
in the formulation stage. This has resulted in policy that is based on 
limited information or perhaps without full understanding of industry 
practices. We believe that for the best and most efficient food safety 
program, the regulatory agency needs to engage the industry in 
policymaking. Some contemplated policies need to be discussed through 
rule-making where consumer advocates, industry and other interested 
parties all have a chance to comment.
    I respectfully request that the Subcommittee ask USDA to seek input 
from industry and, when appropriate, other interested parties as the 
Department considers policy changes.
Expanded Inspection Coverage
    Last year, during a hearing conducted by another House Committee, 
FSIS was criticized for the limited inspection coverage it was 
providing to certain red meat and poultry further processing operations 
that do not involve slaughter. In responding to that criticism, the 
agency increased the frequency of inspections at these ``patrol 
plants,'' some of which were being inspected less frequently than 
weekly.
    In further response to that oversight hearing, the agency recently 
decided to increase inspection in egg products further processing 
operations that were already receiving inspection a minimum of 8 hours 
and often 16 hours or more during at least 5 days of each week. We 
estimate that this expansion will require that the agency hire an 
additional 30 or more inspectors to regulate an industry that consists 
of less than 80 processing plants.
    In many instances, the cost of this additional coverage will be 
charged to our members as overtime and in other cases, taxpayers will 
bear the burden. In just about every instance, there is no food safety 
justification for the additional coverage. Plants have never been able 
to perform critical functions such as egg breaking--which is somewhat 
analogous to slaughter--without an inspector on duty. Other processes 
could continue on a limited basis after the end of an inspector's tour 
of duty with the understanding the process was always subject to an 
unannounced surveillance inspection.
    Some egg driers produce only a few hundred pounds of product each 
hour. Now even plants where that is the only process occurring on third 
shifts or on weekends will pay for an inspector to literally sit and 
watch a few containers being filled each hour. The only human 
intervention in these operations is to close a filled box or drum and 
replace it with an empty container. Keep in mind that the product going 
into those containers was produced from previously inspected liquid 
product and the final product cannot be shipped until the inspector has 
an opportunity to inspect it.
    In the worst example I have heard to date, one company was told 
that they could incur 100 or more hours of overtime each week so that 
an inspector can continuously observe a sealed room where dried product 
is heat-treated for at least 7 days. I hope that inspector likes to 
read. If the Subcommittee had a lot of time, I could offer other 
similar examples.
    The Department has, after almost 38 years of operating a highly 
successful inspection program, found a legal technicality that their 
attorneys believe justifies this expansion of inspection coverage. 
Perhaps they can use legal language to justify imposing this additional 
burden on the regulated industry and taxpayers.
    However, it makes no sense from a food safety or practical 
standpoint. It did not make sense 38 years ago, and certainly does not 
make sense now, particularly considering our food safety record and the 
many improvements in automated process control. At a time when FDA is 
inspecting some very complex food processing operations once every 10 
years, we believe that the Subcommittee may want to consider if USDA is 
making the best use of resources.
Conclusion
    Mr. Chairman, I appreciate the strong interest of Members of this 
Subcommittee in improved safety of our food supply. Every person in our 
nation should be interested in improved food safety. At the same time, 
I appreciate the opportunity to explain the measures already in place 
that continue to assure that the United States has the safest egg 
products in the world.
    Thank you, Mr. Chairman.

    The Chairman. Thank you. Mr. Carpenter.

      STATEMENT OF BARRY L. CARPENTER, CEO, NATIONAL MEAT 
                    ASSOCIATION, OAKLAND, CA

    Mr. Carpenter. Chairman Scott, Ranking Member Neugebauer, 
Members of the Subcommittee, thank you for the opportunity to 
testify. The National Meat Association has over 500 members, 
and has served the interests of the meat packing industry since 
1946. Our members are committed to safe food and high quality 
production. NMA provides regulatory and technical assistance as 
well as Pathogen Reduction and HACCP support and education to 
our members. We provide a network for all segments of the 
industry to come together through workshops, conferences, and 
ad hoc meetings. While NMA represents establishments of all 
sizes, my testimony will focus on small plants. Approximately 
25 percent of our general members are federally inspected 
facilities with less than 20 employees. My prepared testimony 
discusses the evolution of HACCP implementation for small 
establishments, and the FSIS and industry outreach for those 
plants.
    For my oral testimony, I will discuss what I see as 
strengths of FSIS in this area, as well as those areas where I 
see a need for improvement. NMA believes that overall FSIS has 
done a good job protecting public health given the outdated 
nature of the statute under which it operates. The agency has 
implemented HACCP and conducted routine verification testing in 
all establishments where they have oversight. Being able to 
successfully implement these programs in all establishments 
whether they employ 500 employees or one employee was not an 
easy task.
    FSIS has conducted significant outreach and has allowed the 
outreach to evolve as the industry's needs have changed from 
implementation to design. When NMA and others have called on 
FSIS to partner on outreach needs, FSIS has responded promptly. 
FSIS used to provide information through hard copy materials 
but now uses hands-on workshops, web-casts, podcasts, and even 
Twitter. Not all establishments have successfully implemented 
well-designed HACCP plans and FSIS has instituted a solid 
infrastructure to continuously support those establishments, 
especially to continue to evolve in a more risk-based system 
with measurable public health outcomes. FSIS already conducts 
the majority of its pathogen sampling in a risk-based fashion 
based on sampling data it has collected over time.
    We encourage FSIS to continue to strengthen the quality of 
the data it collects so that it can base more of its inspection 
activities and policies on this data; continue towards a risk-
based system, including reassignment of inspection resources 
and inspection tasks. FSIS has demonstrated successes over the 
last several years with a risk-based approach as the 
foundation, and these successes could be a model for the entire 
food safety system. Food safety should be less about which 
agency is inspecting the food and more about the risk profiles 
posed by different food products, and the performance of the 
establishments that manufacture those food products.
    We also believe that any proposed changes should be 
sustainable well into the future. I refer here to the example 
of HACCP and the evolution of small plant outreach programs. We 
encourage you to avoid making any legislative changes so 
prescriptive that evolution cannot occur within a regulatory 
context. We believe that continuous training is essential for 
FSIS employees, and while significant improvements have been 
made in this area, we believe this is an area in which FSIS 
cannot rest on its laurels. For continuous progress to occur, 
the agency's commitment to training must be sustained. As the 
processes and techniques for effective food safety assistance 
evolve and become more sophisticated the need for consistent 
implementation will be paramount.
    Finally, I will close with a thought on communications. We 
strongly encourage the agency to communicate with all 
constituents during the early stages of policy development. If 
stakeholders can be included in the process from the beginning, 
then all stakeholders benefit. New policies must consider the 
realities of production and add value to the overall food 
safety initiative. Further, interactive implementation in small 
phases would be a huge benefit, especially to the small and 
very small plants.
    In summary, FSIS has done a good job with the small and 
very small plant outreach program. This has allowed successful 
implementation of HACCP. Most notably, the agency has allowed 
the program to evolve when the needs of the establishments 
evolve. Moving forward, we are hopeful that any future changes 
be evolutionary in nature, risk-based with measurable public 
health outcomes as their focus. NMA believes that through our 
collective efforts the small and very small plants can continue 
to be an integral part of a safe and plentiful food supply. I 
am pleased to answer any questions.
    [The prepared statement of Mr. Carpenter follows:]

     Prepared Statement of Barry L. Carpenter, CEO, National Meat 
                        Association, Oakland, CA
Introduction
    Chairman Scott, Ranking Member Neugebauer, and Members of the 
Subcommittee, I am Barry Carpenter, Chief Executive Officer of the 
National Meat Association (NMA), headquartered in Oakland, California. 
NMA has over 500 members, and has served the interests of the meat 
packing industry since 1946. Our members are committed to safe food, 
high-quality production, and most remarkably to each other. NMA 
provides regulatory and technical assistance as well as Pathogen 
Reduction (PR) and Hazard Analysis Critical Control Point (HACCP) 
support and education to our members. Consultants tap into our 
networking resources; and academics and educators utilize our 
information services and weekly newsletter and website. We provide a 
network for all segments of the industry to come together through our 
offices, (in California and Washington), workshops, conferences, 
conventions, and ad hoc meetings.
    While NMA represents establishments of all sizes, as well as 
equipment manufacturers, consultants, educators, and others, my 
testimony will focus on small plants. Approximately 25 percent of our 
general members are federally inspected facilities with less than 20 
employees. We recognize that there are many issues regarding food 
safety right now, and believe that is why it is important for there to 
be such a diverse panel of experts testifying today. I will discuss the 
evolution of PR/HACCP implementation for small establishments, the Food 
Safety and Inspection Service (FSIS) outreach for small and very small 
plants, and industry outreach. Finally, I will discuss what I see as 
strengths of FSIS in this area, as well as those areas where I see a 
need for improvement. I will be happy to answer questions on this 
topic, as well as more broad scale questions at the conclusion of my 
testimony.
Implementation of PR/HACCP
    FSIS published the final rule for PR/HACCP Rule in 1996. In January 
1997 all establishments, regardless of size were required to implement 
Sanitation Standard Operating Procedures (SSOPs). However, FSIS 
recognized that HACCP implementation would be more difficult for small 
plants and provided a phased implementation process. FSIS utilized the 
definition of the Small Business Administration when considering plant 
size. That is, they considered:

  Large: 500 or more employees.

  Small: 10&499 employees, unless annual sales total less than $2.5 
        million.

  Very small: Fewer than ten employees, or annual sales of less than 
        $2.5 million.

    Further, to meet the requirements of the Small Business Regulatory 
Enforcement Act of 1996, FSIS implemented the Small and Very Small 
Plant Outreach Program, specifically tailored to these plants. FSIS 
focused on ensuring that these establishments had the resources that 
were needed to successfully implement a HACCP plan. Generic HACCP plans 
were provided, workshops were presented, and materials were provided to 
these facilities including examples of how to implement a HACCP plan 
that met the basic regulatory requirements. FSIS established a HACCP 
Hotline at the Technical Service Center in Omaha, NE to respond to 
HACCP technical and implementation questions from industry and FSIS 
personnel. The Hotline doubled the number of staff to ``gear up'' for 
implementation at small establishments, as they had received over 
16,000 calls during the first year when large establishments had 
implemented HACCP. The hours of operation were consistent with the 
needs of both coasts, and 24 hour coverage was available. NMA members 
often asked our staff to join them on these calls to ensure they 
understood the responses and could best utilize the information they 
were provided. Additionally, FSIS conducted 20 nationwide meetings in 
preparation for the small plant implementation--hosting over 1,700 
participants. It was these types of activities, and the commitment of 
the industry taking advantage of the FSIS resources, that led to 
successful implementation of HACCP by all segments of the industry, 
both large and small. It is important to note that virtually none of 
the small and very small plants had employees with experience or 
training in process controls or HACCP principles. This transition was 
very frightening and traumatic for plant owners and their employees. A 
major factor leading to the successful implementation of HACCP was the 
constructive interaction among FSIS, NMA and our members.
Evolution of FSIS' Outreach
    Once everyone had implemented HACCP, FSIS established a new 
position, the Enforcement and Investigation Analysis Officer to review 
the actual design of the HACCP plan. It was at this point, that FSIS 
recognized the needs of the small and very small plants had evolved. 
While small plants had implemented HACCP, those plans were not all well 
validated or well designed food safety systems. So in 2005, FSIS worked 
with small and very small plant operators to reassess their HACCP plans 
and enhance the design of their food safety systems. NMA and our 
members participated in outreach sessions held by FSIS in Montana, 
Pennsylvania, Massachusetts, and California. These sessions produced a 
healthy dialogue about what updates FSIS needed in their outreach 
strategy. The feedback suggested FSIS needed to gear the outreach 
toward the scientific basis for the HACCP plan; shifting the focus from 
the execution to the design of the plans. Further, the International 
HACCP Alliance, of which NMA is a charter member, hosted a strategic 
meeting in December 2005, to assist FSIS in determining the needs of 
small and very small plants and how best to meet those needs. In 
response to this meeting FSIS developed an Implementation Plan for all 
eight of its Program Areas to take actions to meet the most current 
needs of the small and very small plants.
    FSIS has since established a stand alone outreach office focused on 
this effort, the Office of Outreach, Employee Education and Training. 
FSIS has moved to conducting Regulatory Education Sessions, the closest 
the agency has come to joint training, by allowing both agency and 
industry personnel to participate. The agency has developed several 
podcasts on key issues, and has begun issuing a Small Plant Newsletter 
on important topics. Most recently the agency has begun ``hands-on'' 
workshops for small and very small plants.
NMA Outreach
    On many occasions, the National Meat Association has partnered with 
FSIS to meet the needs of its members with small and very small 
establishments. Further, based on the premise that food safety should 
not be a competitive issue in the industry, NMA has included many of 
our large establishment representatives to assist with these type 
programs. I will point out a few examples of current programs NMA has 
hosted in which FSIS has very willingly participated.

  <bullet> Humane Conference Call--agency representatives, NMA, 
        academia, industry consultants--June 2008.

  <bullet> Humane Handling Conference Call--with agency representative, 
        NMA and industry consultants--March 2008.

  <bullet> Export Verification--agency representatives, NMA, academia, 
        industry consultants--June 2008.

  <bullet> E. coli Notices--NMA, agency representatives, academia, 
        industry consultants--October 2007.
What FSIS has Done Well
    NMA believes that overall FSIS has done a remarkable job protecting 
public health, given the outdated nature of the statutes under which it 
is operating. The agency has implemented SSOPs, HACCP and conducted 
routine verification testing in all establishments for which they have 
oversight. Being able to successfully implement these programs in all 
establishments, whether they employ 500 employees or one employee was 
not an easy task. FSIS has conducted significant outreach, and has 
allowed the outreach to evolve as the industries needs evolved. As the 
industry needs have changed from those of implementation to design, 
FSIS resources followed suit. When NMA (and others) have called upon 
FSIS to partner in outreach needs, FSIS has responded promptly. As the 
resources that people need change, so has FSIS. FSIS used to rely 
primarily on the telephone and hard copy materials, but now uses, 
hands-on workshops, web-casts, podcasts, and even Twitter.
What Can Be Improved?
    Now that all establishments have successfully implemented well-
designed HACCP plans, and FSIS has instituted a solid infrastructure to 
continuously support those establishments, inspection should continue 
to evolve to a more risk-based system with measurable public health 
outcomes. FSIS already conducts the majority of its pathogen sampling 
in a risk-based fashion, based on sampling data it has collected over 
time. We encourage FSIS to continue to strengthen the quality of data 
it collects so that it can base more of its inspection activities and 
policies on this data and continue to move more fully towards a risk-
based system, including reassignment of inspection resources and 
inspection tasks. FSIS has demonstrated successes over the last several 
years with a risk-based approach as the foundation, and these successes 
could be a model for the entire food safety system. Food safety should 
be less about which agency is inspecting the food, and more about the 
risk profiles posed by different food products, and the performance of 
the establishments that manufacture those food products.
    We also believe that any proposed changes should be such that they 
can be sustained well into the future. I refer here to the example of 
PR/HACCP and the evolution of the small plant outreach program. We 
would encourage you to not make any legislative changes so prescriptive 
that evolution cannot occur within a regulatory context.
    We believe that continuous training is essential for FSIS 
employees. And while significant improvements have been made in this 
area, we believe this is an area in which FSIS cannot rest on its 
laurels. For continuous progress to occur the agency's commitment to 
training must be sustained. As the processes and techniques for 
effective food safety systems evolve and become more sophisticated the 
need for consistent implementation will be paramount.
    Finally, I would close with a thought on communications. We would 
encourage the agency to communicate with all constituents during the 
developmental phase of policy development. Once a policy is developed 
it is too late. If stakeholders can be brought in early in the process, 
then all stakeholders benefit, including the agency. New policies must 
consider the realities of production and add value to the overall food 
safety initiative. Further, interactive implementation would be a huge 
benefit, especially to the small and very small plants. We would 
encourage open communication at all stages throughout the process of 
policy development. And interactive implementation in small phases so 
that everyone understands each step before moving on to the next.
Summary
    In summary, FSIS has done a remarkable job with their small and 
very small plant outreach program. This has allowed successful 
implementation of PR/HACCP, a preventive system for the reduction of 
food safety issues in meat and poultry plants. Most notably, the agency 
has allowed the program to evolve with the needs of these 
establishments. Moving forward, we are hopeful that any future changes 
are also evolutionary in nature, risk-based with measurable public 
health outcomes as their focus. NMA believes through our collective 
efforts the small and very small plants can continue to be an integral 
part a safe, efficient and plentiful meat supply.
    I now will be happy to answer any questions.

    The Chairman. Thank you very much, and thank each of you 
for your testimony. They have been very, very informative and 
will go a long way in helping us. We in Congress, and this 
Administration, are determined, of course, to keep our food 
safe for our country and the world. Certainly, we cannot do it 
without you, and we are grateful for your time and for the 
testimony that you have given. We will now open it up for 
questions. I have a few. Let me start, first of all, with Dr. 
Krushinskie, if I may. Something you said really grabbed me and 
I wanted to make sure that it was accurate. You gave a data, a 
piece of data, that referred to the amount of chicken that we 
consume individually. Would you repeat that? How much chicken 
does each person in the United States consume?
    Dr. Krushinskie. In 2008, Mr. Chairman, the per capita 
consumption of chicken is 85 pounds, the number one meat.
    The Chairman. Each person consumes 85 pounds of chicken.
    Dr. Krushinskie. Per year.
    The Chairman. That is great, especially for my State of 
Georgia. As you know, we are the poultry capital of the world. 
Let me ask you just a couple of questions, if I can, about the 
poultry. Can you explain what sanitation standard operating 
procedures SSOPs and pathogen reduction performance standards 
for Salmonella are and how they differ from HACCP?
    Dr. Krushinskie. All right. We have several regulations 
that are in the Title 9 Code of Federal Regulations. One is 
section 417, which addresses HACCP regulations, which details 
how analyses are established, process flow is identified, and 
the corrective actions and preventive measures that are taken 
if there are deficiencies. Regulation 416 address sanitation, 
the sanitary operating procedures, SOPs, and the sanitation 
standard operating procedures are SSOPs. Those are broken into 
two categories. One consists of the facility, also, the walls, 
the floors, the integrity of the roof, things like that, 
potable water, et cetera, and the other would be operational 
sanitation so that is keeping product clean, keeping it off the 
floor, not piling up on equipment, et cetera, or employee 
hygiene, hand washing, hair nets.
    We have what we consider to be good manufacturing practices 
which address jewelry, employee hygiene, hand washing, wearing 
smocks, all that kind of--all the parameters that produce a 
clean operating environment.
    The Chairman. And how does FSIS verify that a poultry plant 
is following its HACCP and SSOPs and pathogen reduction 
performance standards for Salmonella?
    Dr. Krushinskie. All right. We have, as you know, we have 
both a veterinarian, typically inspector in charge, or IIC, on 
each operating shift plus a number of inspectors that work for 
them, and part of their inspection responsibility is the 
individual inspection of carcasses going down the line. But an 
additional responsibility is to do two things, to verify that 
we are operating according to the plans that we have written so 
we are doing what we say we are going to do. They come and 
visually observe that we are either taking checks, that we are 
handling product appropriately, that we are not piling up meat 
on the floor, et cetera. They also verify our records, and they 
do a record review periodically, actually very frequently, but 
it is assigned by a computer-generated system so they will 
perhaps look at certain aspects each day. By the end of some 
window of time they have evaluated all the records.
    The Chairman. If this process is sufficient in doing the 
job, no changes need be made?
    Dr. Krushinskie. I think it is sufficient. I think that 
actually we believe that we probably are overly regulated or 
not so much really regulated, but having inspectors on-site 24 
hours while you are processing is probably a little bit 
excessive. We take a lot of pride and responsibility for 
devising these operating programs, process control programs, as 
well as sanitation programs, implementing them and monitoring 
them ourselves, so we take a lot of that responsibility. I am 
not sure that today it is necessary to have USDA inspection in 
the plant at all times.
    The Chairman. I see. Now the beef industry has what is 
known as Beef Checkoff funds, and does the poultry industry 
have something similar to the Beef Checkoff funds? They don't?
    Dr. Krushinskie. No, we do not. We support a couple of 
different trade associations, National Chicken Council, 
National Turkey Federation, and U.S. Poultry and Egg 
Association are the three primary associations, and those are 
all through voluntary dues.
    The Chairman. Okay. Well, thank you. I will now turn to the 
Ranking Member, Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. Mr. Boyle, would 
you kind of highlight the differences between USDA food 
inspection and FDA food inspection, and kind of talk about the 
differences?
    Mr. Boyle. They are quite substantial. One of the graphics 
that I put up during my testimony summarized the differences 
between FSIS and FDA. Off the top of my head, FSIS is 
responsible for about 6,200 plants. They have about 8,000 
inspectors to provide that service. FDA conversely is 
responsible for about 136,000 facilities. I believe they have 
1,900 staff. A lesser amount of them would be field inspectors. 
And the budget disparities are the reason that the inspection 
intensities are so disparate as well. FSIS is appropriated 
about $1.1 billion a year, FDA, about $650 million.
    One of the other major differences is that for our plants 
that are slaughtering animals that inspection presence is 
continuous. If the inspector is late, we don't start on time. 
And it is somewhat of a misnomer or misleading to say there is 
an inspector on-site when we are slaughtering animals and 
processing meat and poultry. Depending upon the size of the 
plant, the volume of product that is produced therein, the 
number of inspectors could rise to as many as a dozen per 
shift, so it is not just a inspector in these large high volume 
plants. There are multiple inspectors stationed throughout the 
facilities during our hours of operation.
    Mr. Neugebauer. Well, I am glad you--and I would like to 
leave that chart up because when that popped up, I was a little 
bit shocked at the disparity of allocation of resources where 
FDA is obviously looking at multiple times more facilities with 
fewer people and less resources. Should that concern us?
    Mr. Boyle. Well, we are relatively satisfied with the level 
of oversight that we have under FSIS. As I mentioned in my 
testimony, the core reform in the last 15 years has been the 
mandate that HACCP programs be incorporated into our plants. It 
was the American Meat Institute that petitioned USDA to impose 
that mandate, because our member companies had discovered on 
their own that HACCP was the most effective way to ensure the 
integrity of the process and the safety of the product.
    I would note that many of the bills that have been 
introduced in this Congress to reform FDA oversight, their 
sector of the food industry, a common component in all of those 
proposals is a HACCP like mandate.
    Mr. Neugebauer. And maybe Dr. Reagan has referred to this 
as well, but it appears from what I hear you all say the HACCP 
program kind of revolutionized the industry to a great degree, 
and that a great deal of improvement in the results of food 
safety occurred by the implementation of that. Is that correct?
    Mr. Boyle. I think it is a fair observation to say that it 
took our process controls to a new level. The pathogen 
incidence data I cited from FSIS will show that the incidence 
is lower for E. coli and Listeria and Salmonellas as well, but 
more importantly the foodborne illnesses associated with at 
least E. coli and Listeria have decreased over the last 9 
years. It is not true with Salmonella even though our incidents 
in the plants have gone down dramatically.
    Mr. Neugebauer. So if I am reading that right, and if we 
were kind of looking at how we best distribute our assets, one, 
maybe you or Dr. Reagan said, we can't test our way to safety 
here, that we have to kind of look at the process and look at 
the technology, I guess, new technologies and new science. So, 
are we better off investing more of our resources in the 
process of how the product is brought into and through the 
process. The testing obviously is a random way to determine how 
well we are monitoring the front end. Am I headed in the right 
direction on that?
    Mr. Boyle. I think you are absolutely correct, Congressman. 
I will give you an example that involves controlling Listeria 
in our ready-to-eat meat and poultry products. About 7 years 
ago, FSIS proposed a new Listeria control regulation that 
categorizes ready-to-eat products into three categories. The 
first are the plants that have the Listeria testing and 
sampling control programs in place. All plants had to do that 
under the regulations. But if a plant also has a secondary 
intervention to control Listeria, such as using certain 
ingredients that inhibit the growth of Listeria in the 
formulation of the products, that is a plant in a different 
category that has greater controls for Listeria.
    And there is a third category, some plants have actually 
invested in high pressure pasteurization post packaging, so 
there are three hurdles in that operation to reduce and control 
Listeria, and the agency is then able to allocate its 
inspection resources based upon the relative risk, not high 
risk, Mr. Chairman, but the relative risk of the products in 
those various plants, and the result has been very successful. 
We have not had a Listeria-related foodborne illness recall 
since 2003.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Idaho, Mr. Minnick.
    Mr. Minnick. Mr. Chairman, members of the panel, my bias is 
that between the trial lawyers bar and the appetite of media 
for anything sensational that 98 percent, at least, of the 
producing entities--all but the fly by night or here and there, 
here today and gone tomorrow--have plenty of incentive to self 
inspect to standards that ensure that there is almost no 
possibility of a serious incident reaching the retail consumer. 
What I would like to ask each of the heads of the processing 
organizations represented here is what is the one thing that 
the FSIS could do, or not do, or modify that would most improve 
the cost effectiveness of your self inspection programs?
    Mr. Boyle. Congressman, I just cited what would be my 
example, the development of regulation in that case, Listeria 
control for ready-to-eat products that recognizes relative 
risk, recognizes multiple interventions of different ways to 
control and ensure the absence of Listeria in the product. It 
incentivizes industry to go the extra mile, if you will, in 
exchange for a little bit of regulatory relief allowing the 
agency to focus on relatively higher risk products. More 
regulations crafted along those lines would be very positive.
    Mr. Minnick. I appreciate that very much, sir. I am 
interested in what the producers, whether they agree with you 
or whether they think there is something else that you could 
do, or not do, that would improve the cost effectiveness of 
their self-regulatory procedures.
    Dr. Reagan. I think what we can do there, one of the 
concerns that we have, and I mentioned it in my testimony, was 
that as we look at inspection, one of the most critical things 
that we have there is having everybody educated. As we are 
looking at best practices whether you have FSIS there or 
whether you have your own plant people there that are 
overlooking that, it is very important that those people are 
knowledgeable about what they are looking for. A real good 
example that we talked about, small and very small plants, we 
worked our--our Beef Industry Food Safety Council, we decided 
that one of the best education tools that needed to be 
developed at the time was what we call the N60 video we use. 
N60 is a process by which we pull samples from beef combos 
which are used in making ground beef. Through observations and 
talking with a number of people, we learned that we had a lot 
of our plant people that did not know how to utilize that 
procedure to get the greatest results from it. In visiting with 
Mr. Almanza, he was concerned that we should also have 
something like that as an education tool for the inspectors. 
So, our group went and got together, we invested the money to 
develop that video. We sent it out to all of our members to all 
the plants.
    We also provided a little under 700 copies of that to Mr. 
Almanza so that he could get it out to the folks in the small 
and very small plants. From our standpoint we think that 
something that is very critical is to have people, whether they 
are plant people or whether they are FSIS people, they need to 
know what their job is. They need to know how to use the tools 
that we have available to enhance safety. And from our 
standpoint this is probably the greatest thing that could be 
done. That would be the greatest investment of our dollars in 
our opinion.
    Mr. Minnick. Could each of the other three producer 
agencies quickly--the one thing could FSIS could do or not do 
that would most enhance your self-regulatory activities?
    Dr. Krushinskie. Speaking for the broiler industry, there 
are kind of two pieces to that. One is that we believe that we 
can be successful doing our own sorting of carcasses in line 
with the HACCP inspection models project, the HIMP model. I am 
not sure if you are familiar with that but it is taking the 
FSIS inspection staff off line and utilizing their expertise in 
more technical areas than simply inspecting carcasses. We are 
very strong supporters of the HIMP model. Second, I would like 
to see more true collaborative efforts, technically, with 
scientific technical dialogue between the industry experts and 
the FSIS decision makers, policy makers. We would like to 
encourage them to use the rulemaking process and to have open, 
transparent dialogue and conversation on rules rather than 
making some administrative decisions unilaterally.
    Mr. Minnick. I will leave it to the Chairman to decide 
whether he would like the other two producers to answer the 
question.
    The Chairman. I will give the gentleman an additional 5 
minutes to pursue his questions.
    Ms. Appell. Thank you. For the pork industry, we would like 
to make sure that the focus is on food safety. I know that 
right now some of the focus is on the animal welfare, although 
we are not saying that we don't want the animal welfare taken 
into consideration, but it is very important that the focus be 
on the food safety. And in addition to that, we would like to 
make sure that there is communication between the Federal and 
the state health associations when there is some kind of 
outbreak so that the situation can be remedied and rectified 
very rapidly. We think that communication needs to be improved.
    Dr. Rybolt. I would just echo what Dr. Krushinskie has 
stated, and then just add to that that as the agency looks to 
modernize or Congress directs FSIS to modernize the inspection 
process to make sure they take risk into account, because 
ultimately that will provide incentives and answer your 
question for the industry.
    Mr. Gibber. The egg industry, first, FSIS should issue the 
HACCP regulations for the egg products industry. It has been 
sitting around for many years and it is time to move that to 
the next level, and the next piece should be risk-based 
inspection rather than having a man sit outside a hot room or 
an inspector sit outside a hot room for product that can't move 
for 7 days, sitting there watching the thermometer which is all 
recorded. It seems to be both a waste of time and energy for 
people.
    Mr. Minnick. Thank you, Mr. Chairman. I yield back the 
balance of my time. Excuse me. I apologize.
    Mr. Carpenter. The one thing that FSIS could do is--they 
need to work closely with the industry to design a risk-based 
system that will use process controls to make the decisions 
they make on food safety. That would focus their resources and 
their efforts, and it would have a tremendous impact on the 
overall food safety position.
    Mr. Minnick. I thank all of you. I yield back my time.
    The Chairman. Mr. Carpenter, let me just pursue that 
because the one operative word in this whole hearing beyond the 
word safety is risk, and in your testimony and just now you 
talked about it. Give us an idea of what you believe a risk-
based system should entail.
    Mr. Carpenter. I think the first thing you have to do is 
you have to evaluate the products and the uses of the products. 
When you look at the manufacturers of those products, look at 
the redundancy of controls to eliminate and restrict those 
potential health hazards. As you move forward with the process, 
and to use an example, if you are taking a product that is a 
ready-to-eat product, the risk associated with that and the 
potential for future intervention to protect the--to control 
the food safety of the product are very minimal, as opposed to 
a raw product which, yes, will have been through some 
interventions to minimize microbial loads and things like that. 
But, you can expect there is likely to be additional food 
safety processes that happen to that product, so you have to 
look at things like the status of the product, how it is going 
to be used to determine what that risk might be.
    The Chairman. How do you think high risk facilities should 
be identified and how long should they be kept in that high 
risk status?
    Mr. Carpenter. I think you have to start out with a 
documented food safety plan in those facilities which lay out 
and have done the research to determine where their risks are, 
where the control points need to be to control those risks. 
Once you have designed that process then you have to, from a 
specialty perspective, you need to come in and look and see how 
effective those systems have been, do some validation of those 
systems and verify that they in fact are working. As you do 
that and find out the results of those tests and those 
verifications then you can assess just what the risks are and 
what you need to do and what additional steps need to be in 
place. But, the key component is doing a risk assessment so you 
know where the risks are and where you need to have controls in 
your process to eliminate those risks.
    The Chairman. Let me just ask--thank you very much, Mr. 
Carpenter. I mentioned earlier about a working group, Food 
Safety Working Group, that President Obama has put together. 
May I ask if any of you have been consulted by this group since 
it has been put together?
    Mr. Boyle. Mr. Chairman, actually when the President 
announced the Food Safety Working Group, we sent him a letter 
commending him for that initiative and volunteering to be 
available to participate in any way that the White House would 
deem appropriate. Effective today, we have not heard back 
though.
    The Chairman. Well, that is good information for us to 
hear. We will certainly see if that situation might not be 
rectified. You all have a wealth of knowledge. As I mentioned 
earlier, this food safety program is extraordinarily important 
to the American people and we need this input. So thank you. I 
am glad that we got that out of the way. Ranking Member 
Neugebauer, do you want to ask a few questions? I had a couple 
more but I will come back later.
    Mr. Neugebauer. Thank you, Mr. Chairman. You know, if you 
have been listening to some of the discussion and seen some of 
the bills that have been introduced about food safety some 
people have advocated one agency to kind of oversee all of the 
food safety issue. I would be interested to just kind of 
quickly down the row what your thoughts are on that. Mr. Boyle.
    Mr. Boyle. I must apologize for turning on my microphone 
again. Our view is that the current FSIS system is working 
quite effectively. There are some challenges on the FDA side. 
Congress is in the process of addressing those. I think we 
would support where we are at FSIS currently.
    Mr. Neugebauer. Okay. Dr. Reagan.
    Dr. Reagan. We would support that as well, NCBA opposes the 
creation of a single food agency, but I would go on to say that 
it would be feasible to enhance the effectiveness of the 
existing system to improve food safety. I think we have a lot 
of great people out there on both sides. I think you would need 
to carefully select those folks. Any changes would certainly 
need to be science based. The main thing that you would not 
want to do is to create a system that would be so overburdened 
with so many people in it, and so many people to report to, 
that you could not run it efficiently like we have seen with 
some agencies and Homeland Security.
    Mr. Neugebauer. Ms. Appell.
    Ms. Appell. The pork industry does not have an official 
position on whether there should be a single agency or not, but 
what we are concerned about is that wherever it is located that 
it is efficient and does a good job and protects our food 
supply. And while there are discussions going on, we would like 
to have a seat at the table so that we can participate.
    Mr. Neugebauer. I concur with a seat at the table. Dr. 
Krushinskie.
    Dr. Krushinskie. On behalf of the poultry industry, we are 
interested in seeing what decisions made by Congress and Senate 
on this issue. Personally, I think that the expertise that is 
housed in the U.S. Department of Agriculture for food-animal 
production should remain with the U.S. Department of 
Agriculture. I am somewhat concerned about FSIS inspection of 
the food-animal industry being under the auspices completely of 
Health and Human Services.
    Mr. Neugebauer. Dr. Rybolt.
    Dr. Rybolt. I think the devils are in the detail. You know, 
moving the boxes around just to move them around doesn't really 
make sense or changing the address. We would fear, that any 
changes that are made would compromise the accomplishments that 
we have discussed here today, over the last few years since 
HACCP has been implemented, et cetera, so I guess the real 
answer is the devil is in the details.
    Mr. Neugebauer. Mr. Gibber.
    Mr. Gibber. Our industry is not in favor of whether it is 
one agency or not. However, out industry is concerned, as we 
have heard before, about throwing out people who have expertise 
and knowledge and understanding of an industry for a new group 
that is not really clear on it, and the threat and the danger 
that that brings.
    Mr. Neugebauer. Mr. Carpenter.
    Mr. Carpenter. Yes. The National Meat Association is 
satisfied with the way FSIS operates. With that said, we 
recognize there is always need for continuous improvement, and 
we encourage them to keep doing that. The debate over a single 
food safety agency is, certainly, secondary. The first thing we 
need to do is we need to determine what is the best way to do 
food safety and what the best process controls are and how to 
accomplish that, and then when you design the system then 
determine how to manage it.
    Mr. Neugebauer. The last question is a yes or no question. 
Several of the food safety bills before Congress would direct 
the FDA to regulate on-farm production practices. Do you agree 
or disagree?
    Mr. Boyle. Can I offer we don't have a position?
    Mr. Neugebauer. That is what we do.
    Mr. Boyle. And so do we.
    Dr. Reagan. No.
    Ms. Appell. No.
    Dr. Krushinskie. No.
    Dr. Rybolt. No.
    Mr. Gibber. No.
    Mr. Carpenter. No.
    Mr. Neugebauer. Thank you. I appreciate that. Mr. Chairman, 
I apologize. I am going to have to leave the panel now. These 
have been great witnesses. Thanks for holding this hearing. We 
learned a lot today, and I think the witnesses all did say 
something that is important right here. At least, what we want 
to be doing is not focusing on the politics here, but focusing 
on the results and whatever is in the best interest of the 
American people to continue, and I use the word continue, to 
provide the safest, most highest quality food in the world. 
That is our objective, and I think we are accomplishing that. I 
think possibly there are some things that we can work with the 
industry and accentuate the positives and plug up a few of the 
holes, but thanks for holding this hearing.
    The Chairman. Well, thank you, Ranking Member, and I 
couldn't have stated it better than your eloquent closing 
statement here. We certainly want to thank each and every one 
of you. As I mentioned, this is an extraordinarily important 
issue. Nothing could be more important than our food safety of 
the American people. We have had some scares with Salmonella 
with our peanuts and so forth, but we are on our way. We have 
some competent experts in this area that we will be drawing 
upon, and we will continue to have a dialogue with you as we 
move forward. Please leave knowing that we are partners in this 
process, going forward, and we value your input and the time 
that you have taken to come and give your testimony to us 
today. Thank you very much. The witnesses are dismissed, and 
the hearing is adjourned.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
Submitted Letter of Wayne Pacelle, President and CEO, Humane Society of 
                           the United States
April 30, 2009

Hon. Collin C. Peterson,
Chairman,
Committee on Agriculture;

Hon. David Scott,
Chairman,
Subcommittee on Livestock, Dairy, and Poultry,
U.S. House of Representatives,
Washington, D.C.

RE: Public hearing to review Federal food safety systems at the U.S. 
Department of Agriculture

    Dear Chairmen Peterson and Scott:

    On behalf of the Humane Society of the United States (HSUS), the 
country's largest animal protection organization, and our more than 11 
million supporters nationwide, I thank the Subcommittee on Livestock, 
Dairy, and Poultry for convening a public hearing to review the U.S. 
Department of Agriculture's (USDA's) food safety systems, and I submit 
this letter for inclusion in the April 23 hearing record.
    Despite repeated assurances by several of the hearing's witnesses 
that their industries are committed to producing safe, wholesome 
product, consumer confidence in the safety of the nation's food supply 
has fallen ``significantly,'' as reported by the Center for Food 
Integrity. In fact, fewer than 20 percent of those Americans surveyed 
``strongly agreed that government agencies are doing a good job 
ensuring the safety of the food we eat,'' and U.S. consumers have 
greater concern about food safety than about the war in Iraq or global 
warming.\1\
    Though the relationships amongst animal handling and care, animal 
welfare, and food safety are complex, scientific data have shown that 
mistreatment of farm animals can result in greater public health 
risk.\2\ According to the Pew Commission on Industrial Farm Animal 
Production, for example, ``[p]ractices that restrict natural motion, 
such as sow gestation crates, induce high levels of stress in the 
animals and threaten their health, which in turn may threaten human 
health.''&\3\ A 2007 study conducted by Oklahoma State University and 
funded by the American Farm Bureau Federation found that 78 percent of 
Americans believe that ``animals raised under high standards of care 
will produce safer and better tasting meat,''&\4\ yet Americans are 
losing confidence that ``U.S. meat is derived from humanely treated 
animals.''&\5\ The approval of ballot initiatives in Arizona, 
California, and Florida further validates the principle that the public 
is concerned about the humane treatment of animals raised for food and 
considers several widespread, conventional confinement practices to be 
unacceptable.
    Despite the public's well-justified and related concerns about farm 
animal welfare and food safety, since 2007, the Government 
Accountability Office (GAO) has classified the food safety oversight 
provided by the Food Safety and Inspection Service (FSIS) of the USDA 
as a ``high risk'' government program in need of significant reform. In 
its January 2009 High Risk Series Report to Congress, GAO expressed 
concern that in 2008, FSIS vacancy rates in some areas were as high as 
22 percent.\6\ In 2008, GAO Director of Natural Resources and the 
Environment, Lisa Shames, testified before Congress regarding these 
long-standing shortcomings: ``USDA faces resource challenges that may 
make it difficult for it to enforce HMSA [Humane Methods of Slaughter 
Act] and ensure the safety of the food supply. Although USDA's budget 
for food safety-related activities has increased since 1988, staffing 
for these activities has declined from its highest level in 1995.''&\7\ 
Finally, USDA's own Office of the Inspector General recently determined 
that ``an inherent vulnerability exists that [HMSA] violations can 
occur and not be detected because FSIS does not have sufficient 
staffing levels to provide continuous surveillance of all operating 
areas within and around a slaughter establishment at all times.''&\8\
    To provide higher welfare for animals raised for meat, eggs, and 
dairy products, and to better protect the safety of the nation's food 
supply, serious reforms are needed, including: USDA should immediately 
develop a significantly improved oversight system to ensure that agency 
inspectors are observing live animals when they first arrive at 
slaughter facilities and as they are offloaded and handled in pens and 
chutes, and that the inspectors are acting to avert violations of the 
HMSA and regulations pursuant to that law, as well as regulations 
regarding nonambulatory animals. Additionally, USDA should stop 
excluding chickens, turkeys, and other farmed birds--who constitute 
approximately 95 percent of all land animals slaughtered for food 
domestically (nine billion birds per year)--from the HMSA's 
protections.
    According to testimony delivered by FSIS Administrator Almanza, 
emphasis should be placed on those food products with higher levels of 
risk. The HSUS is in full agreement. One need only look to information 
supplied to the public by the U.S. Centers for Disease Control and 
Prevention (CDC) to determine which foodstuffs pose significant risk of 
harboring foodborne pathogens. An estimated 76 million cases of 
foodborne disease occur annually in the United States, and three of the 
four most commonly recognized foodborne infections--those caused by the 
bacteria Campylobacter, Salmonella, and E. coli O157:H7--are linked to 
animal products. Campylobacter ``live in the intestines of healthy 
birds, and most raw poultry meat has Campylobacter on it.'' Salmonella 
``can spread to humans via a variety of different foods of animal 
origin.'' E. coli O157:H7 ``has a reservoir in cattle and other similar 
animals. Human illness typically follows consumption of food or water 
that has been contaminated with microscopic amounts of cow feces.''&\9\
    Immediate and serious reform is needed within Federal food safety 
systems. Reorganization of Federal oversight functions, an infusion of 
new resources, more effective use of current resources, and a series of 
new policies are in order, and we look forward to working with the 
Committee in advancing these reforms in order to promote food safety 
and provide better treatment of animals. Thank you for the opportunity 
to submit comments on these important issues.
            Sincerely,
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
References
    \1\&The Center for Food Integrity. 2008. Consumer trust in the food 
system: research study highlights.
    \2\&See: Greger M. 2007. The long haul: risks associated with 
livestock transport. Biosecurity and Bioterrorism: Biodefense Strategy, 
Practice, and Science 5(4):301&11; Greger M. 2008. Amyloid fibrils: 
potential food safety implications. International Journal of Food 
Safety Nutrition and Public Health 1(2):103&15; An HSUS Report: Food 
Safety Concerns with the Slaughter of Downed Cattle at www.hsus.org/
web-files/PDF/farm/hsus-food-safety-concerns-with-the-slaughter-of-
downed-cattle.pdf.
    \3\&Pew Commission on Industrial Farm Animal Production. 2008. 
Putting meat on the table: industrial farm animal production in 
America. Executive summary, p. 13. www.ncifap.org/_images/
PCIFAPSmry.pdf.
    \4\&Lusk J.L., Norwood F.B., and Prickett R.W. 2007. Consumer 
preferences for farm animal welfare: results of a nationwide telephone 
survey. Oklahoma State University Department of Agricultural Economics. 
Working paper drafted August 17.
    \5\&The Center for Food Integrity, op. cit.
    \6\&High Risk Series: An Update. GAO&09&271. Washington D.C. (Jan. 
2009) www.gao.gov/new.items/d09271.pdf. In addition, in February 2008, 
the National Advisory Committee on Meat and Poultry Inspection 
expressed its ``concerns with the current time constraints on 
inspection personnel and whether or not these duties can be 
accomplished within those limitations. FSIS must ensure that human 
resources are adequate to efficiently perform these tasks.'' 
www.fsis.usda.gov/OPPDE/NACMPI/Feb2008/Estab_Sys_Report.pdf.
    \7\&Humane Methods of Handling and Slaughter: Public Reporting on 
Violations Can Identify Enforcement Challenges and Enhance 
Transparency. GAO&08&686T. Washington, D.C. (April 17, 2008). 
www.gao.gov/new.items/d08686t.pdf.
    \8\&U.S. Department of Agriculture, Audit Report: Evaluation of 
FSIS Management Controls Over Pre-Slaughter Activities, Report No. 
24601&0007&KC (Nov. 2008). www.usda.gov/oig/webdocs/24601-07-KC.pdf.
    \9\&U.S. Centers for Disease Control and Prevention. Foodborne 
illness: frequently asked questions. www.cdc.gov/ncidod/dbmd/
diseaseinfo/foodborneinfections_g.htm.
                                 ______
                                 
                           Submitted Question
Response from Alfred V. Almanza, Administrator, Food Safety and 
        Inspection Service, U.S. Department of Agriculture
    Question. It would be helpful for the Committee if we could get 
more information on how high risk products are designated, at what 
point, and where is it, because you have certainly in your testimony 
spoke very emphatically about high risk products.
    I think we certainly need to know a definition of that, and what 
point in the chain do they become high risk, what are they, because we 
need to know what and where they are in the chain and whether or not we 
should inspect them on a continuous basis, which I might ask you once 
we identify who and what they are, would we need to then put a more 
continuous inspection process on them?
    It would be helpful if we could get a ranking on all products and 
would USDA be the one to rank.
    Answer. High-risk products are food products that are the most 
likely to be contaminated, and therefore, the most likely to be 
associated with foodborne illness. To my knowledge, the government has 
never conducted a comprehensive examination of all food categories and 
ranked them according to risk. However, I believe this is an idea that 
warrants serious consideration. We need to look at the various levels 
of risk posed by different food products; the differing performance of 
the establishments that manufacture those food products, as well as the 
handling during storage and distribution. Moreover, we need to ask hard 
questions, such as: what level of inspection is appropriate for each 
food category, what roles are appropriate for the different agencies 
that are responsible for food safety, and how do we achieve uniformity 
in assessing food safety? In addition, I would add that the criteria to 
determine risk would have to be science-based.
    On March 14, 2009, the President created a Food Safety Working 
Group, co-chaired by Secretary of Agriculture Tom Vilsack and Health 
and Human Services Secretary Kathleen Sebelius. Staff at all 
stakeholder agencies, including USDA's Food Safety and Inspection 
Service and HHS' Food and Drug Administration and Centers for Disease 
Control and Prevention, are already meeting regularly to discuss how 
producers, processors, retailers, consumers and all levels of 
government can work collaboratively to make the food we eat as safe as 
it can be. Among the issues that the working group will likely discuss 
is the ranking by risk of products across the food supply.



</pre></body></html>
